Audit of Inter-American Institute
  for Global Change Research

   Sao Jose dos Campos, Brazil



     National Science Foundation
     Office of Inspector General

          September 30, 2004
            OIG 04-2-007
                             EXECUTIVE SUMMARY

This report provides the results of the Office of Inspector General’s (OIG) audit of
National Science Foundation (NSF) grants awarded to the Inter-American Institute for
Global Change Research (IAI). The purpose of the audit was to evaluate (1) the
adequacy of NSF policies and procedures for managing and monitoring IAI awards and
(2) whether IAI was administering NSF grant funds in accordance with award terms and
conditions.

The IAI is an intergovernmental organization created by an international treaty agreement
concluded among 19 countries in the Americas in May 1992. The primary role of IAI is
to coordinate and promote scientific research related to global change in the Americas.
The IAI Directorate, hosted by Brazil, is located in San Jose dos Campos and its
operations and research programs are funded by voluntary contributions from the United
States and 18 other member countries. On behalf of the United States Government, from
1996 to June 2003, NSF has awarded seven IAI grants totaling $16.4 million. Three core
grants, totaling $3.5 million, were to support the Directorate’s operations and the
remaining 4 were research grants totaling $12.9 million.

We found that NSF, on behalf of the United States, is funding a disproportionate share of
IAI’s total costs. Contrary to the 25 percent United States contribution originally
envisioned, NSF is providing 87 percent of its research and operational funds.
Specifically, Argentina has been the only other member country, besides the United
States, to provide research funds. As a result, IAI has operated on average annual
expenditures totaling $2.6 million or 82 percent less than the $14 million budget,
originally envisioned for a small regional research institute in Latin America. As such,
IAI is hampered in its ability to successfully achieve its goal of establishing a “regional
network of cooperating research entities.”

Additionally, the IAI has not adequately managed and monitored its 14 Collaborative
Research Network (CRN) subawards, valued at $10.3 million, to ensure NSF grant funds
were spent for authorized grant purposes and for reasonable costs. The IAI did not
perform either pre-award assessments of the subrecipients’ capability to administer NSF
grant funds and/or post-award monitoring to ensure the grant funds were spent in
accordance with its CRN subaward agreements. Further, the IAI did not implement
recommended NSF improvements, which it had acknowledged were needed to improve
oversight of its subawards. As a result, the IAI could not ensure adequate financial
control and accountability over its CRN subawards and experienced serious problems
with 2 of the 14 subawardees.

Further, our review of IAI’s core expenditures disclosed that funds were generally used
for purposes consistent with the NSF grant objectives and were spent on the types of cost
typically allowable under federal cost principles. However, we noted several areas where
IAI needs to make improvements to ensure the most cost effective use of grant funds and
to preclude the charging of unallowable grant costs. The problem areas identified
include: premature drawdown of grant funds that resulted in over $100,000 of increased

                                             i
U.S. Treasury borrowing costs, payment of $67,000 in excessive educational allowances
that could have been better used for other IAI program purposes, and the charging of
$11,277 in unallowable Cuba-related grant costs.

One of the primary factors contributing to the problems noted during our audit was that
the IAI treaty agreement only required member countries to provide voluntary
contributions to support the IAI Directorate’s core expenditures and research programs.
Unfortunately, the IAI has not been fully successful in obtaining such voluntary funding
from its member countries and has not given adequate priority to seeking additional
research funding from alternate outside sources.

Also, as a foreign organization, the IAI was not familiar with and/or did not understand
its responsibilities for subaward monitoring required by its NSF grant agreement. As
such, the IAI did not place a priority on monitoring or improving its oversight of CRN
subawardees. Furthermore, because the IAI was a treaty organization, NSF, on behalf of
the United States, was required to work through the IAI’s governing body, comprised of
representatives from all 19 member countries, to effect changes for improving IAI
procedures for managing and monitoring NSF grant funds to ensure adequate financial
accountability. As a result, such efforts were often difficult and not always fully
successful.

Given the lack of financial commitment demonstrated by other member countries to
support the IAI over the 10 years that it has been operating, we recommend that NSF
work with the President’s Office of Science and Technology Policy (OSTP) and
Department of State to re-evaluate the United States funding commitment to IAI. The
United States needs to determine whether the scientific results and benefits of IAI funded
research justify the United States essentially being the only IAI member country
contributing towards its support. Also, NSF needs to continue to work with the IAI’s
governing bodies to (1) promote and oversee IAI’s fund-raising activities, (2) re-assess
the IAI mission, goals, and staffing levels if additional funding is not obtained, and (3)
ensure that IAI establishes written subaward management policies and procedures. We
also recommend that NSF cease funding additional IAI research programs until the IAI
has developed and implemented written monitoring procedures to ensure its subawardees
are properly accounting for and managing NSF grant funds. Additional
recommendations were made to require the IAI to limit the drawdown of grant funds to
immediate cash needs, to limit educational allowances to actual costs incurred, and to
establish controls to preclude the charging of Cuba-related costs to NSF grants.

A draft audit report, requesting comments, was issued to the IAI and NSF’s Directorate
for Geosciences and the Division of Grants and Agreements. In general, NSF agreed
with the audit findings and recommendations, with the exception of one recommendation.
Specifically, NSF did not agree to work with the OSTP and the Department of State to
re-evaluate the United States funding commitment to IAI. Furthermore, NSF believed
that the audit recommendations, in many cases, did not reflect the fact that NSF acts both
as a grantor agency and an individual member country of the IAI. As such, NSF stated it
cannot simply “direct” the IAI to comply with U.S. procedures for handling its grant


                                            ii
funds, but must develop consensus support by convincing other IAI member countries of
the merit of such NSF-U.S. procedures. Similarly, the IAI generally agreed with the
audit findings and recommendations, with the exception of the one recommendation
regarding the limitation of subawardee fund advances to only amounts needed to meet
immediate cash needs. After our review of the NSF and IAI comments, we re-affirmed
the two subject audit recommendations and have explained our position after the
summaries of their comments.




                                          iii
                          TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                   i

INTRODUCTION

    Background                                                      1

    Objectives, Scope, and Methodology                              3

FINDINGS AND RECOMMENDATIONS

    1. NSF Funds a Disproportionate Share of Total IAI Costs        4

    2. IAI Needs to Improve Financial Management and Oversight of   12
       CRN Subawardees

    3. Excess Advances of Grant Funds Being Drawn                   23

    4. IAI Has Opportunities to Strengthen Management of Its Core   27
       Expenditures

OTHER CONSIDERATIONS

    Some IAI Employee Benefits Are More Generous Than               32
    Comparable United Nations Benefits

APPENDICES

    Appendix A - Status of IAI Core Contributions by Member         37
                 Country for Fiscal Year 2003

    Appendix B - NSF Comments to Draft Audit Report                 38

    Appendix C - IAI Comments to Draft Audit Report                 48




                                      iv
                              ACRONYMS

CoP     IAI’s Conference of Parties

CRN     Collaborative Research Network

DACS    NSF Division of Acquisition and Cost Support

DGA     NSF Division of Grants and Agreements

EC      IAI’s Executive Council

FAC     IAI’s Financial and Administrative Ad Hoc Committee

IAI     Inter-American Institute for Global Change Research

ISP     Initial Science Program

GEO     NSF Directorate for Geosciences

NSF     U. S. National Science Foundation

OMB     U. S. Office of Management and Budget

OSTP    President’s Office of Science and Technology Policy

PESCA   Program to Expand Scientific Capacity in the Americas

SGP     Small Grant Program




                                      v
                                   INTRODUCTION

BACKGROUND

Inter-American Institute for Global Change Research

The Inter-American Institute for Global Change Research (IAI) was created by an
international treaty agreement concluded among representatives of countries in the
Americas in May 1992. The IAI treaty agreement created an intergovernmental
organization for the purpose of coordinating and promoting scientific research related to
global change in the Americas. There are currently 19 member countries: the United
States, Argentina, Brazil, Mexico, Chile, Peru, Colombia, Canada, Venezuela, Ecuador,
Uruguay, Costa Rica, Panama, Bolivia, Cuba, Paraguay, Jamaica, Dominican Republic,
and Guatemala.

The IAI is governed by its Conference of Parties (CoP), the Executive Council (EC), and
its Scientific Advisory Committee (SAC). The CoP is comprised of representatives from
the 19 member countries and is the primary policymaking body. The EC is comprised of
up to 9 members, elected by the CoP for 2-year terms, that meets twice a year. It
develops policy recommendations for approval by the CoP and ensures implementation
of those policies by the IAI Directorate. The Financial and Administrative Ad Hoc
Committee (FAC) assist the EC in matters relating to planning, preparation, and
implementation of IAI financial, administrative, and project management issues. The
SAC is the principal scientific advisory body and has 9 members, elected by the CoP for
three-year terms. During its annual meeting, it develops recommendations to the CoP
regarding the IAI Science Agenda and long-term plans.

The IAI Directorate is responsible for the day-to-day operation and the implementation of
policies and scientific programs as determined by the CoP and EC. It operates under the
leadership of the Executive Director with a current staff of 13. The IAI is hosted by
Brazil and in March 1996, the Directorate was established on the campus of the Brazilian
National Space Research Institute located in Sao Jose dos Campos. The IAI Directorate
functions as an internationally recognized organization, with the corresponding privileges
and immunities granted by the Government of Brazil.

The IAI’s primary mission is to develop the capacity to understand the impact of present
and future global changes on regional and continental environments in the Americas and
to promote collaborative research. An important aspect of the IAI mission is the
development of networks of scientists and scientific institutions that work collaboratively
on global change issues of regional importance. As such, IAI acts much like NSF in
soliciting, peer reviewing, and awarding grants to research networks consisting of
multiple institutions in the Americas. In this regard, the Directorate manages the IAI
Scientific Programs through announcement of grant opportunities, organization of
proposal evaluation based on a peer review system, establishment of award agreements
and resource allocations, and monitoring and evaluation of scientific progress.



                                             1
The U.S. Government has actively participated in development of the IAI. The White
House Office of Science and Technology Policy (OSTP) designated the NSF as the lead
U.S. agency for funding the IAI. As such, NSF was instrumental in training IAI staff in
establishing a peer-review system and has expended a great deal of effort in preparing the
IAI for the process of managing a proposal driven and peer reviewed research program.
Further, NSF has continued to take a proactive leadership role in IAI by serving in
authoritative positions on the EC, FAC and SAC, thereby, actively participating in
developing IAI’s financial, administrative, and project management policies and
procedures as well as its Scientific Agenda.

IAI receives two types of funding: core funding and scientific program funding. Core
funding supports the IAI Directorate’s operational expenses and is received through
voluntary annual contributions pledged by its 19 member countries for a three-year
period. Each member country pledged annual core contributions in proportion to its
required dues for membership in the Organization of American States. For fiscal year
2003, member countries pledged $945,000 of voluntary core contributions; of which the
United States share was $550,000 or 58 percent of the total. IAI’s scientific program
funds are derived from voluntary contributions from member countries and/or other
external sources. As discussed below, the United States has provided $12.9 million of
IAI’s total direct research funds and Argentina has provided $210,755. According to IAI,
the other member countries have provided in-kind contributions for scientific research;
however, IAI does not verify or validate the dollar value of these reported
in-kind contributions.

United States Funding

Since the IAI Directorate was established in Brazil in 1996, NSF has continuously funded
the IAI on behalf of the U.S. Government. From 1996 through June 30, 2003, NSF
awarded 7 grants to the IAI totaling $16,365,269: 3 grants totaling $3,490,000 for core
support of the Directorate’s operations1 and 4 grants for research totaling $12,875,269.
Regarding research funding, NSF has funded the following IAI scientific programs:

       Initial Science Program (ISP) - Round III                                 $1,878,984
       Collaborative Research Network (CRN)                                      10,336,285
       Program to Expand Scientific Capacity in
                the Americas (PESCA)                                                300,000
       Small Grant Program (SGP)                                                    360,000

                Total NSF Research Grants                                      $ 12,875,269




1
       The other IAI member countries have also provided contributions for core support.


                                                    2
OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to evaluate (1) the adequacy of NSF policies and procedures
for managing and monitoring awards to the IAI to ensure compliance with applicable
federal regulations and award terms and conditions and (2) whether the IAI was
administering NSF grant funds in accordance with award terms and conditions. Our audit
was primarily directed to reviewing administration of two NSF awards: the IAI core
support grant for fiscal year 2003 (award number GEO 02 40107 for $550,000) and the
CRN grant from 1999 to 2003 (award number ATM 99 07233 for $10,336,285). We
reviewed applicable federal and NSF policy and procedures, NSF award jackets, and NSF
site visit reports; and interviewed cognizant NSF program and grant officials to gain an
understanding of the steps taken to award and monitor the IAI grants.

In evaluating the adequacy of the IAI’s administration of the NSF grants, we reviewed
the organization’s internal financial and management policies and procedures to account
for and safeguard NSF funds. We reviewed the IAI Directorate’s expenditures reflected
in its accounting records and financial reports and performed detailed testing and review
of expenditures incurred from July 1, 2002 to June 30, 2003. Our review of financial
transactions was extended to other periods only as deemed necessary. We toured the IAI
offices and interviewed key IAI personnel to gain an understanding of management
controls in place to administer its core operational funds and to oversee and monitor its
research subawards.

We reviewed IAI grant files maintained on its CRN subawards from 1999 to June 2003.
Also, we performed a limited review of available documentation supporting expenditures
for CRN subaward 038, awarded to the Water Center for the Humid Tropics of Latin
America and the Caribbean in Panama. The documentation had been provided by the
subawardee and was maintained in IAI grant files. Similarly, we performed a limited
on-site review of the financial administration of CRN subaward 061 provided to the
University of Sao Paulo in Brazil. We discussed the financial administration of the CRN
grant funds with the project’s Principal Investigator and officials of the University’s
accounting department. Detailed testing and review was performed for a limited sample
of CRN 061 project expenditures.

We conducted our audit in accordance with the Comptroller General’s Government Audit
Standards and included such test of accounting records and other auditing procedures, as
we considered necessary, to fully address the audit objectives.




                                            3
                            FINDINGS AND RECOMMENDATIONS

1. NSF Funds a Disproportionate Share of Total IAI Costs

NSF, on behalf of the United States, is funding a disproportionate share of IAI’s total
costs. An interagency model developed for a regional research institute, such as the IAI,
envisioned that the United States would contribute approximately 25 percent of total
funding.2 However, NSF has contributed 87 percent of IAI’s core operational and
research funding from 1996 to 2003. Specifically, Argentina has been the only other
member country, besides the United States, to provide research funds and IAI’s 19
member countries have paid only an average of 86 percent of their promised voluntary
core support contributions annually.

As a result, IAI has operated on average annual expenditures of $2.6 million or 82
percent less than the $14 million budget, originally envisioned for a small regional
research institute. Without adequate member contributions, IAI is hampered in its ability
to successfully achieve its goal of establishing a “regional network of cooperating
research entities.” This occurred because the IAI establishing agreement only required
member countries to provide voluntary contributions to support the Directorate’s core
expenditures and research programs. Unfortunately, the Institute has not been fully
successful in obtaining such voluntary funding from its member countries and has not
given priority to seeking additional research funding from alternate outside sources such
as other international organizations and private foundations.

Model For Regional Global Change Research Institute

When the idea for a regional global change research institute was first proposed, it was
envisioned that it would require $20 million to fund operational and research costs for an
intermediate size organization and $14 million for a minimal size institute located in
Latin America. The idea for such a regional institute in the Americas had been discussed
since at least 1991, with the United States showing strong interest in the development of
such institutes globally. At the time, the scientific, political, and practical rationales
pointed toward locating such an institute in Latin America. It was recognized that the
United States would provide a major share of start-up costs and a portion of the institute’s
annual operating costs. Based on a model developed by a U.S. interagency group
exploring such institutes, it was envisioned that the United States contributions, after the
first two or three years, would be approximately 25 percent of total core and research
funding; with the understanding that the remaining portion would be provided by other
countries, international organizations, and private foundations.

Accordingly, on May 13, 1992, the IAI was created by an international treaty agreement
concluded among representatives from 16 countries 3 in the Americas to establish a
2
         It was envisioned that other countries, international organizations, and private foundations would
provide the remaining 75 percent of funding.
3
         Sixteen countries originally signed the IAI treaty agreement; currently there are 19 member countries.


                                                        4
“regional network of cooperating research entities. . .” for the purpose of coordinating
and promoting global change research. Two of the IAI’s primary objectives were (1) to
fund regional scientific programs and projects where the research cannot be pursued by an
individual country or institution and (2) to promote regional and international cooperation
and coordination of global change research programs. Pursuant to the Agreement provisions,
IAI member countries were to provide “voluntary contributions” to support both the IAI
Directorate’s core operational expenses and major research programs. Further, the IAI
Agreement specified that its research programs could also be supported by donations from
organizations other than its member countries including private foundations, industry, other
international intergovernmental groups, as well as other countries outside the region.

IAI Member Countries Not Providing Voluntary Contributions

Essentially, the United States has been the only member country that has provided IAI with
voluntary contributions for research to accomplish its goal of establishing a “regional
network of cooperating research entities” to address global change research issues. Since
1996, when the IAI Directorate was first established in Brazil, through June 2003, the United
States, through NSF grants, has contributed approximately $12.9 million or 98 percent of the
total IAI research budget. Only one other member country, Argentina, has provided research
funds of $210,755.4 The following chart shows a breakdown of total funding that IAI
received for research from 1996 to June 30, 2003:5

United States Funding (NSF Grants)

         Collaborative Research Network (CRN)                                             $10,336,285
         Small Grant Program (SGP)                                                        $ 360,000
         Program to Expand Scientific Capacity in the Americas (PESCA)                    $ 300,000
         Initial Science Program (ISP III)                                                $ 1,878,984

                  Total United States Funding                                             $12,875,269

Other Country Funding

         Argentina (CRN)                                                                  $ 210,755
         Other IAI Member Countries                                                       ____-0-___

Total IAI Research Funding                                                                $13,086,024




4
         Argentina originally committed to providing an additional $881,885 for the CRN Program, but was
unable to fund the commitment because of the country’s financial crisis in recent years.
5
         From 1995 to 1998, a $3 million grant from the World Bank for the Global Environmental Facility was
awarded to equip IAI member countries with computer hardware and software for global change research and
associated training of scientists. The project, however, was actually executed by the World Meteorological
Organization, on behalf of the IAI.


                                                     5
Although IAI and NSF officials stated that the other member countries have provided
in-kind contributions, in lieu of cash, to support research, IAI did not consistently require
reporting of such in-kind contributions and was unable to provide any documentary
support for these contributions.

In addition, some IAI member countries have not always paid their core support
contributions. Five of the 19 member countries did not make any core contributions for
fiscal years 2001 to 2003. Historically, since 1994, member countries have paid an
annual average of 86 percent of their pledged commitments. As of June 30, 2003, the
outstanding unpaid balance of IAI core commitments cumulatively totaled $494,051.
(See Appendix A on page 37 for a Schedule of Unpaid Country Core Commitments.)
Also, since some countries did not meet their core support commitments, the United
States and other member countries incurred a larger proportion of their total share of core
contributions. In particular, for fiscal year 2003, the United States contributed 69 percent
of the total core support, or 11 percent greater than its required 58 percent share.

Lack of Country Contributions Hampers IAI Mission Accomplishment

Without adequate member country contributions, the annual IAI expenditures have
averaged only $2.6 million instead of $14 million, as originally envisioned for a small
regional global research institute. This funding shortfall has hampered the IAI’s ability to
fully achieve its scientific agenda as IAI states in its Biennial Report 2000-2002:

       “The IAI has been able to distribute more than $20 million (US) in
       support of scientific research over the last ten years, but this is
       really an inadequate level of funding for such a large network . . .
       To date, the bulk of the IAI’s financial support has come from only
       a small number of member countries and international
       organizations. To be blunt, the IAI is over-reliant on the support
       of the US National Science Foundation. For the IAI to reach
       its full potential, and be able to fund the highest-quality
       science, new and broader sources of financial support are
       urgently needed, as are new programs for support-matching . . .”
       (emphasis added)

Also, given that the United States is the primary funder for IAI’s research programs, it is
the United States interests in IAI that are most in jeopardy without adequate financial
support and it is unlikely that NSF will fully realize the research goals it intended with its
awards to IAI.

Furthermore, because of the limited research funding received, IAI has incurred relatively
high costs to administer its research funds. Specifically, our analysis of research costs,
reported in audited annual financial statements from 1998 to 2003, disclosed that IAI
disbursed $9,372,653 in research funds or an average of $1,562,109 annually. During
this same period, IAI core expenditures totaled $6,058,152 or an average of $1,009,692
annually. Therefore, for every research dollar disbursed, IAI incurred administrative


                                              6
operating costs of approximately 65 percent, a rather high percentage. NSF officials
noted that IAI administrative costs are not limited to the awarding and managing of
research funds, but that a significant portion is associated with its activities for promoting
and coordinating its global change research program both regionally and internationally.
Nevertheless, the NSF Program Manager did acknowledge that IAI has the capacity to
manage additional research funding.

Additionally, IAI is projecting an unmanageable cash deficit in three years if member
countries continue being delinquent in paying their full core contributions. Although the
IAI requested an 8 percent increase in its member country core contributions in its fiscal
year 2003/2004 budget request to help address this future deficit, the CoP did not approve
the increase. Further, even with the increased contribution rate and a zero net growth in
IAI core expenditures, the IAI estimates that it will incur a deficit of approximately
$122,000 annually, assuming member countries continue to fund IAI at the historical
payment rate of their required commitment. Thus, by the end of fiscal year 2006, IAI
projects that its cumulative annual operating losses will consume its current cash
reserve.6

Such operating deficits will negatively impact the IAI’s ability to accomplish its goals of
managing and overseeing its research and coordinating regional and international
cooperation of its scientific programs. For example, the IAI proposes a 25 percent
reduction in both staff travel and dissemination activities. It will also no longer provide
support for its CoP and EC meetings and will reduce support for both its Scientific
Advisory Committee (SAC) meetings and EC Ad-Hoc working groups. Such meetings
are essential to ensure that the IAI is directing its scientific program towards priorities
identified by the global change experts serving on its SAC and approved by its member
countries.

Over Reliance on Voluntary Contributions Results in IAI Financial Difficulties

We attribute IAI’s financial situation to the inability and/or unwillingness of IAI member
countries to provide voluntary contributions to support IAI core and research costs as
well as the lack of concerted IAI efforts for fund-raising activities. As an
intergovernmental organization, the IAI is subject to the shifting scientific interest and
economic status of its member countries for its financial support. As such, the lack of
contributions from some member countries to support IAI can be partly attributed to the
economic downturn in certain geographic regions over recent years. Additionally,
the IAI agreement only provides for voluntary contributions for its core support by its
member countries and does not establish a mechanism for the IAI to collect the core
contributions pledged by each country if they chose not to pay. Therefore, NSF officials
stated that many of the IAI country representatives to the CoP, who annually commit
their countries to the core contributions, do not possess the authority and/or power within
their country’s government to ensure that these commitments are paid.



6
         Cash reserves resulted from savings from previous years primarily from reduced core expenditures
because IAI was not fully staffed.
                                                      7
However, given the projected operational deficits, an EC Ad Hoc Working Group has
been established to assist the IAI in developing strategies to obtain the payment of
voluntary country commitments pledged for its core support. NSF officials stated that
such efforts have resulted in recent payment of some overdue core contributions, but
continued IAI priority must be directed towards these efforts to ensure that adequate core
operational funds are obtained for IAI to remain a financially viable organization.

A similar situation exists for obtaining contributions to support the IAI’s research
program. Since contributions from member countries are also voluntary, IAI efforts have
not been successful over the years to persuade the countries to provide such funding.
Also, IAI officials emphasized that many member countries have laws stipulating that
their research funds can only be spent in their own countries, making them, therefore,
unable to provide funding for IAI research.

However, while the IAI has the authority to obtain financial support from sources other
than member countries, it has not made such fund-raising activities a priority. Unlike
core funding, the IAI agreement allows for research funding to be “donated by other
States outside the region, regional or international intergovernmental organizations, and
industries and other intergovernmental and private organizations …” However, the IAI
acknowledges that it has not undertaken concerted efforts in the past to obtain research
funding from such alternative sources. Although the new IAI Director and Science
Officer stated that increased emphasis would be directed at identifying specific
opportunities and applying for additional research funds from international grant-making
organizations such as the United Nations Development Programme or the World Bank, to
date, the IAI has not developed a comprehensive strategy for achieving such additional
funding-raising efforts for its research program. Rather, it continues to largely rely on
U.S. funds to support its operations.

Since NSF, on behalf of the United States, has the most funds at risk, it needs to take
steps to ensure that IAI’s overall mission and operational structure are re-assessed if
additional fund–raising efforts are not successful. NSF needs to continue to actively
work with IAI staff, the CoP, and the EC in encouraging member countries to provide
voluntary contributions for IAI core support and research programs. However, given the
new IAI Director’s recognition of the importance of identifying specific opportunities for
obtaining research funding from other grant-making organizations, we believe that the
CoP and the EC should direct the IAI to give priority to these research fund-raising
efforts as well.

NSF needs to aggressively work through the CoP and EC to oversee IAI progress in its
development of a comprehensive strategy to seek additional research funds as well as
payment of its core support commitments. Hopefully, such efforts will yield additional
IAI core and research funds to accomplish its objective of establishing “a regional
network of cooperating research entities.” However, if such fund-raising efforts are not
fully successful, NSF should propose and work with the CoP and EC in assessing IAI
mission, goals, and staffing levels to be consistent with the level of funding actually
received. With the lack of sufficient research funds, IAI’s mission may be better
redirected to emphasize its scientific coordination activities for global change research
issues instead of the grant-making activities associated with funding a network of
                                             8
research entities. Consistent with such a change, an evaluation of IAI staffing levels
would be warranted to eliminate its current surplus grant-making capacity, thereby
reducing its core operational costs.

Furthermore, NSF needs to work with the White House Office of Science and
Technology Policy (OSTP) and the Department of State to re-evaluate the US
commitment to funding the IAI. Given that the IAI has now been operating for over 10
years and its member countries have not fully funded its core contributions and
essentially not funded any IAI research, the United States Government needs to re-assess
its continued financial commitment at current levels. This is particularly important
because IAI has received significantly less total funding than originally envisioned and
has acknowledged that the lack of adequate funds has hampered its ability “to reach its
full potential and be able to fund the highest-quality science.” The United States needs to
determine whether the scientific results and benefits of the IAI funded research justify
continued research funding at current levels, particularly if additional IAI financial
resources are not obtained from its member countries and/or other outside sources.

Recommendations:

We recommend that the Assistant Director, Directorate for Geosciences (GEO):

1.1    Continue to work with the CoP and the EC in aggressively promoting and
       overseeing the IAI Directorate’s efforts to obtain payment of core support
       contributions and additional research funding from alternative outside sources.
       Specifically, the IAI Directorate should be directed to develop a comprehensive
       strategy for obtaining additional funds with established milestone dates for
       accomplishment.

1.2    Propose to the CoP and EC that, if additional funding is not obtained, a
       re-evaluation of IAI mission, goals, and staffing levels be performed to redefine
       the IAI’s objectives and eliminate current surplus grant-making capacity.

1.3    Work with the OSTP and the Department of State in re-evaluating the United
       States commitment to provide continued research funding to IAI. Consideration
       should be given to the benefits of IAI funded research in comparison to
       accomplishing these same objectives through direct U.S. funding of such projects
       under the United States Global Change Research Program.

NSF Comments

NSF generally concurs with the audit conclusions and recommendations, but notes that
some factual information needed to be corrected to provide better tone and context to the
audit finding. Specifically, while NSF agrees that the current IAI “operating budget to be
insufficient for the scientific quality of proposal received,” it believes that the comparison
of IAI’s $2.6 million annual expenditures to the $14 million annual budget envisioned in
a U.S. planning document misrepresents the funding shortage issue. NSF states that the
$2.6 million is an understatement of the IAI budget, because it only included U.S.
contributions, and the $14 million is an overstatement, because it was derived from a U.S.
                                              9
planning document that was never presented to or approved by IAI member countries.
Also, NSF notes that the actual payment rate for core country contributions was greater
than the 80 percent rate cited in the audit report and that there was not an operating loss
in fiscal year 2003.

NSF generally concurs with recommendations 1.1 and 1.2, but did not agree with
recommendation 1.3. Specifically, NSF states that a CoP Working Group has asked the
IAI Director to develop a strategy document and timeline for obtaining unpaid core
support contributions and agrees to continue to work with the Directorate in exhorting all
member countries to pay their contributions. Further, NSF concurs “that if additional
funding is not obtained, the CoP and EC may need to re-evaluate the programs of IAI.”
However, it believes that the IAI mission and goals are appropriate and that current
staffing levels are at the minimal level required to provide for responsible science and
financial management.

With regard to recommendation 1.3, NSF states “This is not a matter that is appropriate
for OIG comment.” Nevertheless, it believes that the assessment of IAI’s scientific
performance in comparison with U.S. priorities has been achieved by a very active
Federal interagency process that “has assured an appropriate match of IAI and U.S.
global change research priorities primarily through vigorous and wide participation of
U.S. scientists in the review and evaluation of research proposals submitted to the IAI.”

IAI Comments

While the IAI specifies actions to implement the audit recommendations, it believes that
the audit report comparison of their average annual expenditures of $2.6 million with the
$14 million budget, originally envisioned in U.S. planning documents, was an
overstatement of the funding shortage issue. IAI’s position is that the $14 million was
“a very preliminary vision of expected funding” developed more than a decade ago.
Additionally, the IAI provided information to clarify that an operating loss was not
incurred in fiscal year 2003 because the value of donated services from its Brazilian host
organization needed be included in total IAI annual income. Also, IAI noted that the
average historical core country contribution rate was 86 percent.

In response to the audit recommendation 1.1, the IAI Directorate states that progress has
been made in obtaining payment of overdue core support contributions from member
countries. Further, the IAI has presented a strategy for fund-raising activities at the
EC/CoP sessions in June and July 2004.

OIG Response

Based on NSF and IAI comments, we have revised the audit finding to properly reflect
that there was not an IAI operating loss incurred in fiscal year 2003 and that the actual
average core country contribution rate was 86 percent, rather than the 80 percent
historical rate cited in IAI budgetary planning documents for fiscal year 2003/2004.
However, in regards to both NSF and IAI comments that the $14 million annual budget
was not an appropriate number to be used as a basis for comparison, we believe that in
the absence any other documented discussion of required IAI funding levels, this U.S.
                                             10
planning number was a proper amount to reference. However, based on NSF comments,
we have clarified in the audit finding that the $2.6 million, cited as the average IAI
annual budget, was actually the average IAI annual expenditures and were derived from
research and core expenditures reported in their audited annual financial statements.
These average annual research expenditures of $1,562,109 and core expenses of
$1,009,692 included IAI disbursement of contributions from all member countries and
not just U.S. funds.

With respect to recommendation 1.1, IAI actions to develop a strategy and timeline for
obtaining payment of overdue core support contributions is appropriate and
commendable. However, in order to fully implement this recommendation, NSF needs to
continue to work with the CoP and EC to direct the IAI to develop a similar strategy and
timeline for fund-raising activities to seek research funds from sources other than
member countries. Increased IAI priority and emphasis needs to be given to identifying
specific opportunities and applying for additional research funds from other grant-making
organizations, since it is apparent that other member countries are not willing to
voluntarily contribute funds for IAI research. It is time for IAI to take concerted actions
and not continue to rely solely on U.S. funding to support its research operations.

With respect to recommendation 1.2, NSF’s agreement that “if additional funding is not
obtained, the CoP and EC may need to re-evaluate the programs of IAI” is appropriate.
We believe that such a review when performed will concurrently result in an assessment
of IAI staffing needed to support such program changes.

Lastly, with regard to recommendation 1.3, we believe that NSF misunderstood the intent
of our recommendation. We are not concerned about specific research priorities, but are
concerned whether NSF should continue funding IAI research or could accomplish the
same research objectives by directly funding such projects through the U.S. Global
Change Research Program. Under such a funding scenario, NSF would have direct
control over the procedures required to ensure financial oversight and accountability of
its grant funds. Therefore, based on NSF comments, we have revised the wording of the
audit recommendation to clarify our intent. Nevertheless, we do re-affirm our position
that NSF needs to initiate actions to revalidate the U.S. Government’s commitment to
continue funding the IAI research program given the total lack of research funding from
other member countries. When the IAI was created in 1992, it is clear from the U.S.
planning document and the IAI treaty agreement that the U.S. Government expected
other member countries to share in funding IAI’s research program. However, the United
States has provided 98 percent of the research funding from 1996 to 2003. Therefore, we
believe that it is appropriate and timely for the U.S. Government to be clearly informed
of this IAI funding shortage issue and be provided the opportunity to re-assess its funding
commitments based on the current facts and circumstances.




                                            11
2. IAI Needs to Improve Financial Management and Oversight of CRN
   Subawardees

Although OMB and NSF grant requirements hold the grantee responsible for the
programmatic and administrative performance of its subrecipients, the IAI has not
adequately managed and monitored its 14 Collaborative Research Network (CRN)
subawards, valued at $10.3 million, to ensure NSF grant funds are spent for authorized
grant purposes and for reasonable costs. The IAI has not performed either pre-award
assessments of the subrecipients’ financial or management capability to administer NSF
grant funds and/or post-award monitoring to ensure the grant funds were spent in
accordance with its CRN subaward agreements. Further, the IAI has not implemented
actions that NSF has recommended in the past and which it has acknowledged was
needed to improve its oversight of its subaward programs.

Without adequate monitoring and oversight, the IAI could not ensure financial
accountability of NSF grant funds and as a result, several CRN subrecipients could not
account for or support its grant expenditures and/or charged unreasonable costs. This
occurred because as a foreign organization, the IAI was not familiar with and/or did not
understand its responsibilities for subaward monitoring required by its NSF grant
agreement. As such, the IAI did not place a priority on monitoring or improving its
oversight of CRN subawardees.

Grant Monitoring and Oversight Responsibilities

In receiving federal grant funds, NSF grantees have a stewardship responsibility to
exercise prudent oversight and monitoring of government funds to ensure public monies
are spent for authorized grant purposes. When grant funds are passed-through or
transferred to a subrecipient, OMB and NSF grant requirements7 specify that the primary
grantee is responsible for the programmatic and administrative performance of its
subawardees. As such, the primary grantee should establish subaward agreements
contractually obligating the subrecipient to the same basic federal terms and conditions
imposed by its NSF grant agreement.

Further, OMB procedures8 provide guidance on subaward monitoring responsibilities for
primary grantees. Specifically, primary grantees should (1) advise subrecipients of the
requirements of laws, regulations, and grant agreements, (2) monitor subrecipient
activities to ensure the awards are used for authorized purposes in compliance with the
grant agreements, and (3) ensure that subrecipients have met audit requirements. Further,
the OMB procedures describe and suggest additional subaward monitoring techniques
including: review of subrecipient financial and performance reports, sites visits to review
financial and programmatic records and observe operations, and maintenance of regular
7
         Subpart C, Section 51 (a) of OMB Circular A-110, Uniform Administrative Requirements for Grants
and Agreements With Institutions of Higher Education, Hospitals, and Other Non-profit Organizations, and
Chapter III of NSF Grants Policy Manual sets forth grant monitoring requirements.
8
         Subpart D, Section 400 of OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, and Section M of the A-133 Compliance Supplement establish OMB guidelines for a pass-
through entity’s monitoring responsibilities for its subawards.


                                                    12
contacts and appropriate inquiries on program activities. The extent of subrecipient
monitoring required for each awardee should be based on a risk analysis of factors such
as the size of the subawards, the complexity of the compliance requirements, and the
experience of the subawardee in administrating federal grant funds.

IAI Did Not Monitor CRN Subawardees

Contrary to established OMB and NSF requirements, the IAI has not adequately
monitored its CRN subawardees to ensure adequate financial and administrative controls
over NSF grant funds. Specifically, the IAI has not performed pre-award assessments of
the subrecipient’s financial control systems, has not established a formal tracking system
to document receipt of required annual progress reports, and has not generally conducted
site visits at its CRN subawardees.

Between 1999 and 2003, NSF awarded the IAI $10.3 million to fund 14 CRN projects,
each project ranging from $294,000 to $820,000.9 As of March 31, 2004, NSF has
disbursed $7,720,335 or 75 percent of the NSF grant funds to IAI. However, prior to
issuing the subawards, the IAI did not perform any evaluation or site visits to assess the
CRN subawardees’ financial and management capabilities to administer these grant
funds. We could find no documentation in CRN grant files to evidence that the IAI had
requested any information from the subawardees to determine the adequacy of their grant
management systems to account for or ensure allowability of costs charged to the
subawards. Thus, the IAI awarded funds for the CRN projects with little assurance that
the recipients had financial management systems capable of accounting for and
supporting expenditures of NSF’s grant funds.

Also, IAI performed only limited post-award monitoring of its subawardees to ensure
compliance with all terms and conditions of its CRN subaward agreement. For example,
although IAI relies on annual progress reports, required by its subaward agreement, as a
primary means to monitor the status of CRN projects, IAI lacks an organized tracking
system to ensure the reports are received timely and reviewed for completeness and
accuracy prior to making additional grant payments. For the four-year period from June
1999 to June 2003, we were unable to determine whether 52 percent of the annual
financial and scientific reports and work plans were submitted on time. Our analysis of
the remaining reports disclosed that another 33 percent of the reports were submitted
late.10 The CRN Program Manager, who is a scientist, was assigned primary
responsibility for reviewing the annual financial reports for accuracy and completeness
rather than the IAI Financial Officer, who is more knowledgeable to perform such
reviews.

9
          In addition to NSF funds, Argentina has also provided $210,755 to fund the CRN projects. The CRN
projects are carried out by teams of 4 to 6 research institutions from different member countries in the Americas.
The IAI issued the 14 subawards to the home research institution of the lead principal investigator for each CRN
project, each of whom agreed to manage and pass-through the NSF grant funds to the team of other performing
research organizations.
10
        We calculated the due dates based on the anniversary dates of the original CRN agreements. While
some CRN projects did not actually start on these beginning dates, the anniversary dates in the CRN agreements
were never amended. If the dates had been amended, some of these reports could have been timely.


                                                       13
Also, the IAI has not generally conducted post-award CRN site visits although its
subaward grant agreement states that: “IAI will monitor grant progress and ensure
compliance with applicable standards” and has the right to make site visits “to review
project accomplishments, grantee management control systems, administration and
management of the grant . . .” Over the four-year life of the CRN Program, the IAI has
only conducted post-award site visits at 2 of the 14 projects and only in those cases where
specific problems were brought to its attention.

NSF Provides Onsite Technical Assistance

Further, the IAI has not taken actions to address similar concerns identified by NSF. At
the request of the IAI Financial Officer,11 NSF grants and program officials made four
site visits between June 2001 to March 2002 to offer advice and assistance to IAI in
managing its grant funds. During these visits, various NSF grants and program officials
conducted extensive discussions with IAI on the federal grant requirements, as delineated
in the OMB Circulars, and the NSF award terms and conditions. The NSF
recommendations primarily focused on the management of the IAI Directorate’s core
expenditures and have resulted in the establishment of IAI procedures, which has
significantly improved controls over its basic core operational costs.

However, NSF also concluded that the IAI needed to integrate financial oversight of its
subawardees into the management of its research program. NSF specifically
recommended that the IAI develop a Project Management Manual as a means to improve
its oversight over “the financial integrity and accountability of the organizations
receiving the awards.” NSF suggestions for improvement included pre-award site visits
and reviews of financial data submitted by subawardees. However, because NSF was
representing the U.S. as the country representative to the Conference of Parties (CoP),
IAI’s policymaking body, NSF was required to work with the other member countries in
requiring the IAI to develop the recommended Project Management Manual. Thus,
through its representation in the CoP, the Executive Council (EC), and the Financial and
Administrative Ad Hoc Committee (FAC), NSF program officials continued to
emphasize the importance of financial oversight of research projects and the need to
establish clear written policies and procedures to ensure such fiscal accountability.

Yet, despite continued NSF efforts, at the time of our on-site visit in June 2003, the IAI
had done little to implement NSF’s recommendations. While the IAI has acknowledged
the need to develop the recommended Project Management Manual and agreed that
future CRN subawardees will be evaluated on their ability to administer research funds
before they are given an award, we could find little evidence that the IAI has taken steps
to accomplish such improvements.




11
           When the IAI Finance Officer was hired in January 2001, he requested immediate assistance from NSF
to clarify requirements for management of its grant funds.


                                                     14
Some CRN Subawardees Had Inadequate Accounting Controls Over Grant Funds

As a result, the IAI could not ensure adequate financial control and accountability over its
$10.3 million of CRN subawards and experienced serious problems with 2 of the 14 CRN
subawardees. Specifically, these 2 subawardees could not account for or support their
grant expenditures and/or charged unreasonable costs as follows:


         CRN Project 038 – Water Center for the Humid Tropics of Latin America and the
         Caribbean (CATHALAC)

         A June 2002 financial statement audit report disclosed that the subawardee’s
         system of internal controls was so deficient that the auditor was unable to express
         an opinion on the organization’s financial statements. Among the many
         deficiencies noted, the audit report concluded that the organization did not have
         an established accounting system for systematically recording and reporting
         financial transactions on a daily basis for the three-year period from 1998 to
         2000.12

         When the IAI became aware of the audit report, it temporarily suspended the
         subaward13 on October 4, 2002 and contracted for its own audit of CRN grant
         funds of $323,400. The audit revalidated many of the same deficiencies noted in
         the prior audit report and concluded that there was a lack of adequate supporting
         documentation for many grant costs, although it did not identify any specific
         misuse or misappropriation of funds. Further, the IAI learned that both of the
         CRN project’s principal co-investigators had deposited the grant funds in either a
         personal checking account or an institution account where they inappropriately
         had direct control of the NSF grant funds.

         Also, during our limited review of supporting documentation, subsequently
         provided by the CRN subawardee to the IAI, we found that some of the grant
         costs charged were not reasonable or allocable to the project under NSF’s grant
         agreement with the IAI, which required compliance with the federal cost
         principles. For example, while the CRN agreement allows the recipient to charge
         a maximum of 10 percent of total IAI grant costs as overhead or indirect charges,
         it does not provide a definition of what constitutes these types of costs. As such,
         this allowed the subawardee in one year to charge a 10 percent overhead rate
         amounting to $14,100, while direct charging $8,024 for secretarial costs, $5,409
         for materials and supplies, and $2,450 monthly for a computer maintenance
         contract. The IAI Finance Officer stated that he believed that the 10 percent
         overhead rate was intended to include many of these administrative type overhead
         costs. Thus, it did not appear reasonable for the CRN recipient to also charge the

12
          The annual financial statement audit had not been performed for prior years, thus the June 2002 audit
report included review of the organization’s financial statements for a three-year period.
13
       IAI had paid the CRN 038 subawardee $323,400 of its five-year grant of $809,000 issued in November
1999. When IAI terminated the subaward, the remaining funds of $485,600 were to be re-budgeted for other
CRN grant purposes.
                                                       15
     grant for a full-time secretary and the full costs of its computer maintenance
     contract.

     Consequently, the Finance Officer acknowledged that the IAI needs written cost
     principles defining the expenses included in the indirect cost rate, the types of
     costs that can and cannot be charged to the subawards, and the types of
     documentation required to support such costs. However, lacking such standards
     in its current CRN subaward agreements because the IAI did not flow-down the
     federal cost principles as prescribed by its NSF grant agreement, the Finance
     Officer did not believe that IAI had a basis to question the reasonableness of the
     claimed costs. Also, given that the subaward agreements did not include any
     specific audit requirements, there was no legal basis specifying that the CRN
     grant costs claimed could be audited, as is typically included in federal grant
     agreements.

     The IAI subsequently terminated CRN project 038 and based on our inquiries,
     officially requested the recipient organization to return $51,712 in unspent funds
     per an October 27, 2003 letter. To date, the subawardee has not returned any
     funds despite repeated request by the IAI.

     CRN Project 061 – Oceanography Institute of the University of Sao Paulo

     Our limited onsite review disclosed that CRN subawardee 061 had significant
     weaknesses in its accounting controls over NSF grant funds.14 In particular, the
     project’s Principal Investigator inappropriately had control over both approving
     and disbursing grant payments. He prepared the documentation to support the
     grant payments, including his own salary, while also having direct control over
     the project’s checking account.

     Although we did not identify any misuse of grant funds, this lack of any
     segregation of duties creates a significant risk that funds could be spent for
     unauthorized purposes without being detected. Additionally, the Principal
     Investigator did not adequately manage and monitor grant funds passed-through
     to two other CRN participating research institutions. For example, contractual
     agreements were not established with these second-tier subawardees establishing
     terms and conditions for the expenditure of the NSF grant funds and the reporting
     of actual expenditures of the funds advanced to these subawardees was not
     required.

     Further, the subawardee claimed grant costs that would not be considered
     reasonable or allocable to the project under NSF’s grant agreement with the IAI,
     which required compliance with the federal cost principles. Specifically, the
     CRN Principal Investigator was paid the equivalent of one-half his normal annual
     university salary from grant funds, totaling approximately $28,582 over the first
     three years of the grant. However, there were no timekeeping records to indicate
     that the investigator had, in fact, devoted an appropriate level of effort to the CRN

14
     CRN grant 061 was a five-year award for $819,000 issued in August 1999.
                                                16
       project, given that the university also employed him full-time. Thus, it was not
       possible to assess the reasonable of such salary charges in relationship to his other
       research and/or university responsibilities. According to IAI officials, Latin
       American universities do not require any form of time and effort reporting for its
       faculty or staff documenting the allocation of hours worked between their various
       university responsibilities and externally funded research projects.

       As previously discussed, the IAI Finance Officer stated that he could not question
       the reasonableness or allocability of the researcher’s salary costs because the
       IAI’s subaward agreement does not include any cost principles or labor effort
       documentation requirements.

Written Policies And Procedures Needed for IAI Management of Research Grants

The lack of adequate oversight of the CRN subawards occurred because as a new and
foreign organization, the IAI was unfamiliar with how to oversee its subawardees. As
such, the IAI did not understand its responsibilities “to monitor grant progress and ensure
compliance with applicable standards” as prescribed by its NSF grant agreement and did
not make subaward monitoring of its CRN projects a priority. The IAI had not developed
written policies and procedures to assess whether CRN subrecipients had the financial
management capability to administer grant funds or to account for and ensure the
propriety of the expenditures they charged to the grants. It did not require subrecipient
compliance with the federal cost principles as required by its grant agreement with NSF,
thus had no basis or standards to evaluate the reasonableness or allowability of any
claimed CRN grant costs. Further, the IAI lacked an understanding of its legal authority
to enforce provisions of its grant agreement with CRN subawardees.

Additionally, personnel and funding issues were a contributing factor to the lack of
adequate IAI oversight of its CRN subawardees. The IAI did not have a qualified
Finance Officer from January 1999 to the end of 2000, when the CRN projects were
awarded and the first two years of funding were received. Also, when a new Finance
Officer was hired in January 2001, the primary responsibility for financial monitoring
remained with the CRN Project Manager, a scientist. During the time of our onsite
review in June 2003, this responsibility still remained with the CRN Project Manager.

In addition, although NSF grant funds were budgeted for the CRN Project Manager’s
salary, IAI officials stated travel funds were not specifically provided for pre-award or
post-award site visits and no funds were budgeted for other important monitoring
activities such as conducting audits of the CRN subawardees. However, NSF program
officials noted that IAI had the discretion to use their core support funding for such
monitoring efforts.

Also, NSF bears some responsibility for IAI’s lack of adequate oversight of CRN
subawards. As a new foreign grantee, provided with a large sum of NSF grant funds to
be passed-through to numerous other foreign organizations, the IAI should have been
designated as a high-risk awardee. As such, NSF grant officials should have provided
proactive technical assistance to the IAI when the $10.3 million CRN grant was awarded
in 1999 to ensure that IAI clearly understood federal responsibilities for managing and
                                            17
monitoring the CRN subawards and had adequate internal controls established to
safeguard NSF grant funds.

Conclusion

To ensure appropriate stewardship over federal grant funds, IAI must exercise prudent
oversight and monitoring of its CRN subawardees to ensure public monies are spent
properly. Specifically, the IAI needs to take immediate actions to improve financial
accountability over the remaining $2.2 million of CRN funds through the expiration of
the grant in May 31, 2005. At a minimum, the IAI must enforce all terms and conditions
of its current CRN grant agreement. As required by its own CRN grant agreement,
appropriate corrective actions are needed to ensure that each subawardee “has established
adequate financial management systems for fund control and accountability.”

Equally important, the IAI should take actions to develop the promised Project
Management Manual for its research subawards. Written policies and procedures need to
be established that clearly specify requirements for how programmatic, financial, and
administrative accountability will be provided and who is responsible for monitoring and
providing oversight of the grant supported activities to ensure such accountability. Such
procedures should include a standard subaward agreement that contractually obligates the
subrecipient to terms and conditions that establish clear legal and financial responsibility
and accountability for the awarded funds and include specific cost principles and audit
requirements. These cost principles should clearly define the type of documentation
necessary to support costs and type of costs that are not allowable.

Additionally, given the problems noted with the adequacy of IAI fiscal oversight of its
current CRN Program, we believe that NSF should not authorize any additional future
research funding until the IAI has clearly demonstrated a commitment to improve its
subaward monitoring responsibilities. The IAI must initiate actions to both enforce its
current CRN subaward agreement provisions and establish and implement written
subaward management policies and procedures to ensure accountability over NSF
research funds passed-through to other organizations. As the U.S. country representative,
NSF should continue to work with the other IAI member countries through the
Conference of Parties (CoP),15 the IAI’s policymaking body, to emphasize the
importance of financial oversight of research projects and requiring the IAI to take
appropriate corrective actions to implement the audit recommendations.




15
         The IAI’s Executive Committee and its Financial and Administrative Ad Hoc Advisory Committee will
have primarily responsibility for working with the IAI to develop specific steps to implement the audit
recommendations and monitor progress.
                                                   18
Recommendations

We recommend that the Assistant Director, Directorate of Geosciences (GEO), in
conjunction with the Division Director, Division of Grants and Agreements (DGA):

2.1   Work with the CoP to require the IAI to develop and implement subaward
      management and monitoring procedures that at a minimum address the items
      specified below. NSF should provide technical assistance to IAI in developing such
      new procedures.

         a. Standards for subawardee financial management of grant funds including
            incorporation of specific cost principles and audit requirements into the
            subaward agreement. These cost principles should clearly define the type of
            documentation necessary to support costs and type of costs that are not
            allowable.

         b. Pre-award evaluation of the financial and administrative capability of
            subawardees to manage NSF grants funds by the IAI finance officer.

         c. Post award monitoring procedures and techniques to include reviewing
            grantee compliance with all IAI award terms and conditions, developing a
            system for tracking and documenting receipt and review of annual financial
            and scientific reports; and performing on-site visits and periodic audits of
            high-risk subawardees.

2.2    Assess the adequacy of the subaward monitoring procedures, required by
       recommendation 2.1 above, prior to approving new NSF awards to fund
       additional IAI research programs. Continue to monitor and work with the IAI in
       proper implementation of such subaward procedures.

2.3    Require the IAI to assess all CRN subawardees and take necessary corrective
       actions to ensure the adequacy of financial management controls over NSF grant
       funds.

2.4    Work through the CoP to direct the IAI to assign primary responsibility for
       financial oversight and monitoring of CRN projects to the IAI finance officer.

2.5    Direct the IAI to obtain the return of $51,712 in unspent grant funds from CRN
       subawardee 038 and apply the funds to other CRN program purposes. If the
       subrecipient does not return the funds, NSF must amend the CRN award to reduce
       the total authorized grant amount by the $51,712 and direct the IAI to reduce
       expenditures claimed under the award by the same amount. (The $51,712 will be
       reported as “questioned costs.”)




                                           19
2.6    Direct IAI to require CRN Project 061 improve its financial management system
       for fund control and accountability of its CRN grant funds by segregating the
       responsibilities for approving and disbursing funds, establishing grant agreements
       with the two other CRN participating research institutions, and monitoring
       expenses for the pass-through funds provided to these participating research
       institutions.

2.7    Require that a portion of future NSF research funds be specifically dedicated for
       subaward monitoring activities such as site visits and subgrantee audits.

2.8    Direct IAI to ensure its staff receive appropriate training on federal grant
       requirements.

NSF Comments:

While NSF generally agrees with the audit conclusion and recommendations, it states that
the audit finding does not adequately recognize the extensive NSF efforts undertaken in
recent years to improve IAI management processes. It emphasized that numerous site
visits and NSF led-efforts within the IAI have resulted in the updating and development
of procedures manuals for the effective management of IAI funds. Furthermore, NSF
noted that the CRN grant (ATM 99 073230) was awarded using the Grant General
Conditions (GC-1) as its award terms and conditions, but that all future research grants
will be awarded using the Foreign Grant General Conditions (FGG).

With regard to the audit recommendations, NSF officials state that IAI is developing a
Project Management Manual and updating its Accounting Manual to address the
subaward issues identified and that both documents would be reviewed by GEO, DGA,
and the Division of Financial Management (DFM), and other NSF entities, as
appropriate. However, it states that “sub-awardee cost principles and audit requirements
are covered under applicable Grant General Conditions” and that “pre-award evaluation
of the financial and administrative capabilities of sub-awardees is rarely feasible or
practical, and is not a prerequisite for NSF to make an award.” NSF states that while it
can not fully “ensure implementation” of subaward monitoring procedures prior to the
award of future grants, GEO and DGA will continue providing IAI with guidance to
educate them on subaward monitoring procedures consistent with the FGG award terms.
NSF emphasizes that the FGG outlines the awardee’s responsibilities for subaward
monitoring.

While NSF concurs that better subaward monitoring is required, it does not fully agree
with recommendation 2.7 to specifically dedicate NSF research funds for such purposes.
Specifically, NSF states that it “will work to ensure that future subawards are monitored
and site visits are made when appropriate, but audits should be the primary tool for such
monitoring.” However, NSF strongly believes that such monitoring efforts should
eventually be funded out of the IAI core budget and not exclusively out of NSF research
funds.

Furthermore, NSF states that the financial and oversight responsibilities for IAI funds has
already been assigned to the Administrative and Financial Officer and agrees that certain
                                            20
IAI staff should receive formal training in federal grant requirements. Lastly, NSF
concurs that IAI should obtain the return of unspent grant funds from CRN awardee 038,
but noted that the exact amount in dispute should be $51,712.

IAI Comments

The IAI has identified specific actions taken or planned to implement all the audit
recommendations. Specifically, the Directorate is developing a Project Management
Manual for its research projects and has already established a system for tracking the
receipt of annual CRN technical and financial reports. Additionally, the IAI
Administrative and Financial Officer has been assigned primary responsibility for
financial oversight and monitoring of CRN projects. As such, he will review and approve
the CRN financial reports prior to releasing additional grant payments and will request
specific subawardee corrective actions for any problems noted. IAI also has initiated
discussions with NSF concerning suitable dates for formal staff training in federal grant
requirements. Additionally, with respect to recommendation 2.7, the IAI has included
funds for onsite visits and external audits, to be used as subawardee monitoring tools, in
their recent proposal to NSF for the CRN II Program

Specifically, for recommendations 2.5 and 2.6 addressing the two CRN projects reviewed
during the audit, IAI states that the current CATHALAC Executive Director has agreed
to recommend to its Executive Council the return of the unspent funds on CRN project
038. However, IAI notes the correct amount of the unspent funds should be $51,712.
With respect to CRN project 061, IAI states that it is maintaining contact with the
Principal Investigator and the University of Sao Paulo to improve its financial
accountability over CRN grant funds.

OIG Response

Based on NSF comments, we have revised the audit finding to more fully acknowledge
and recognize NSF’s technical assistance efforts in recent years to improve IAI
management processes over its funds. Also, we have corrected the amount of unspent
funds for CRN project 038 to $51,712.

NSF and IAI corrective actions for recommendations 2.3, 2.4, 2.5, and 2.8 are
appropriate. By assigning primary responsibility for financial oversight and monitoring
of IAI research projects to the Administrative and Financial Officer and agreeing to
provide formal training in federal grant requirements, we believe that there should be a
significant improvement in fiscal accountability over IAI subawards funded with NSF
grant funds.

Furthermore, with regard to recommendations 2.1 and 2.2, it is highly commendable that
GEO, DGA, and DFM agree to review the IAI Project Management Manual and
Accounting Manual being developed to establish written IAI subaward management and
monitoring procedures. However, because the NSF comments were not clear, we want to
re-affirm recommendation 2.2 that new NSF grants for research not be awarded until IAI
has completed the promised Project Management Manual and initiated steps to
implement such procedures. This is imperative given the lack of IAI progress on such a
                                           21
Manual since NSF first identified the need during its first site visit in June 2001.
However, based on NSF comments, we have re-worded recommendation 2.2, but the
overall thrust of corrective actions required remain the same.

Additionally, we are concerned with NSF’s statement that “Pre-award evaluation of the
financial and administrative capability of sub-awardees is rarely feasible or practical, and
is not a prerequisite for NSF to make an award.” First, we would like to note that during
the audit, we found no evidence that IAI had undertaken any efforts to evaluate the
capability of its 14 CRN subawardees for managing funds, prior to awarding over $10
million in NSF grant funds. Secondly, given that NSF considers all foreign awardees to
be high risk, the large dollar amount of IAI’s current CRN II grant proposal for $10.3
million, and our audit results; we believe that in this particular case, NSF does need to
verify that IAI, at minimum, has established the promised Project Management Manual,
as a prerequisite for receiving new NSF research awards.

Additionally, we disagree with NSF’s position that the Foreign Grant General Conditions
(FGG) provide clear awardee responsibilities for subaward monitoring. We believe that
the Grant General Conditions (GC-1), used for the current CRN grant, provide for clear
cost principles and audit requirements, as delineated in applicable OMB Circulars.
However, the Foreign Grant General Conditions (FGG), to be used for all new IAI
research awards, do not include any audit requirements and essentially no cost principles
because all reference to the OMB Circulars has been deleted. Therefore, there are no
NSF standards for these important aspects of grant management established for IAI
and/or its subawardees. As such, it is imperative that DGA develop and include special
award conditions in the FGG provisions for its new IAI research grants to specify clear
NSF standards for cost principles and audit requirements.

Furthermore, to fully implement recommendation 2.6, we believe that IAI needs to
delineate specific actions planned to remedy the accountability issues identified at CRN
project 061. As the primary awardee, IAI has the responsibility at minimum, to officially
notify the subawardee of the problems noted, request a corrective action plan, and
monitor implementation of proposed corrective actions.

Lastly, with regard to recommendation 2.7, we consider NSF and IAI proposed corrective
actions to use site visits and audits as monitoring tools to be appropriate. Also, we agree
with NSF’s position that these activities should be funded from IAI’s core funds, if
available. However, in the absence of adequate core funding, we believe that NSF must
provide the needed funding for such monitoring tools to insure adequate financial
accountability over its grants funds in order to fulfill its federal stewardship
responsibilities.




                                             22
3. Excess Advances of Grant Funds Being Drawn

The IAI and its CRN subawardees have maintained excessive cash balances of NSF grant
funds contrary to requirements that award payments should be limited only to amounts
necessary to meet current cash needs. The IAI did not time its drawdown of NSF grants
funds to coincide with its actual planned disbursements and unnecessarily paid the full
amount of annual CRN grant increments, totaling approximately $1.6 million, in one
lump sum payment. This occurred because the IAI did not fully understand federal grant
requirements regarding the timing of payments to meet actual needs and did not have
adequate accounting controls over its CRN fund advances. As a result, the U.S. Treasury
is estimated to have incurred increased borrowing costs of $14,971 over a two-year
period for premature IAI drawdown of NSF grant funds and $92,123 over a four-year
period for prematurely paying annual CRN funding increments.

Advance of Grant Funds Required To Be Limited to Immediate Cash Needs

Federal grant payments to various organizations outside the government constitute a
significant portion of the federal budget. Therefore, advances of cash from the U.S.
Treasury to such organizations for the purpose of financing current operations under
federal programs have a substantial impact on Treasury financing costs and level of
public debt. Therefore, both OMB and NSF grant requirements clearly specify that
awardees only request grant payments in amounts necessary to meet their immediate cash
needs. As such, all NSF grant agreements, including the new foreign grant conditions,
require that the timing of payments comply with Section 432 of NSF’s Grant Policy
Manual (GPM), which states:

         “Timing of payments. Advances to a grantee shall be limited to the minimum
         amount needed and shall be timed to be in accordance with the actual, immediate
         cash requirements of the grantee … The timing and amount of cash advances
         shall be close as administratively feasible to actual disbursements for direct
         program costs and a proportionate share of any allowable indirect costs.” 16

Further, the same requirement is applicable to NSF grant funds that are passed-through to
other organizations, as stated in the same GPM section:

         “Payments to Subawardees. Cash advances made by primary grantees (those
         which receive advances directly from NSF) to others (subawardees) shall conform
         to the same standards of timing and amount as apply to advances by NSF to
         primary grantees, including the furnishing of reports of cash disbursements and
         balances.”

Contrary to these established OMB and NSF requirements, IAI did not time and limit its
requests for NSF grant funds to amounts necessary to meet its immediate cash needs or
the cash needs of its CRN subawardees. Our analysis of IAI’s Federal Cash Transaction
16
         This exact same standard for timing of payments is included in Subpart C, Paragraph 22(b) of OMB
Circular A-110, Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations.


                                                    23
Reports (FCTR) for the two-year time period from June 2001 to June 2003 disclosed
average quarterly excess cash balances of $381,823. Our analysis of one particular
drawdown disclosed that the IAI took six months to completely disburse a $1 million
drawdown of NSF grant funds.

More significantly, the IAI typically paid its 14 CRN subawardees their annual grant
increment, totaling approximately $1.6 million, in one lump sum payment at the
beginning of each grant year.17 We found that these payments were made even though
IAI’s CRN grant agreement clearly states that advances should be limited to cash
requirements. Also, some of the CRN subrecipients had reported balances of unspent
funds in their annual financial reports at the time of the annual disbursements. For
example, the annual CRN financial reports for the first 3 years disclosed that the CRN
subrecipients maintained an average total year-end cash balance of $222,857 or
approximately 12.4 percent of the total CRN funding paid. Specifically, for one CRN
project, an annual grant payment of $149,422 was made on February 14, 2003 when the
annual financial report, submitted the prior month, reported unspent funds of $61,496.

U.S. Treasury Incurs Increased Borrowing Costs

Because the IAI and its CRN subawardees received grant funds prematurely, the U.S.
Treasury incurred increased borrowing costs to fund these disbursements. For the
two-year period of our review from June 2001 to June 2003, we estimate that the interest
costs to the U.S. Government were approximately $19,819 based on the average quarterly
IAI surplus cash balance of $381,823.18 During this same time period, IAI earned actual
interest of $4,84819 on the excess NSF grant funds that it invested in a bank account that
earned .75 point less than the prevailing U.S. Treasury rate. Thus, the net estimated
borrowing costs to the U. S. Treasury was approximately $14,971.

Likewise, IAI’s premature payment of annual CRN funding in one lump sum amount has
resulted in increased borrowing costs to the U. S. Treasury. From the initiation of the
CRN grant in 1999 through June 30, 2003, IAI disbursed $6,566,291 in total CRN
funding, averaging $1,641,573 annually. Using average Treasury interest rates for the
applicable time period, we estimated that the payment of the annual CRN grant amounts
to the 14 subawardees in one lump sum amount instead of in four equal quarterly
payments resulted in increased U.S. Treasury borrowing costs of $92,123.

This occurred because as a foreign organization, the IAI did not fully understand federal
grant requirements and the financial implications of its practices on U. S. Treasury
borrowing costs. The IAI believed that its premature withdrawal of NSF grant funds was
acceptable as long as interest earned was returned to the U. S. Treasury. Also, even
though the IAI’s CRN grant agreement clearly states that fund advances be limited to

17
         Annual CRN increments for the 2002/2003 period were made in 2 payments because of external project
evaluations being performed. Second payment was not made until the evaluation was completed.
18
        For the interest rate, we used the average of U.S. Treasury Bill rates from April 2001 to June 2003 of
2.307%. Treasury Bills had the lowest interest rate, thus provided the most conservative calculation.
19
         IAI paid the $4,848 to the U.S. Treasury on October 30, 2003 as a result of our audit inquiries.
                                                       24
immediate cash requirements, IAI officials believed it was obligated to continue this
practice since it had made the first CRN payments in this manner. However, IAI officials
must take prompt corrective actions to start enforcing its current CRN payment
provisions.

Contributing to the problem of weak CRN cash management practices, the IAI did not
have adequate accounting controls over its CRN advances. Specifically, the IAI did not
liquidate the CRN fund advances in its accounting system when actual project expenses
were reported in the annual CRN financial reports. As such, the IAI was not able to
readily determine the true cash needs of the CRN projects and could not determine and
report actual CRN grant expenditures. Further, it is likely that this accounting
inadequacy is affecting other IAI subawards. While our audit did not specifically review
the timing of $2.5 million of payments IAI made to subrecipients under its other NSF
funded research grants, review of applicable IAI subaward agreements similarly
disclosed that advances were required to be limited to immediate cash requirements.

Recommendations:

We recommend that the Division Director, DGA, in consultation with the Division
Director, Division of Financial Management (DFM):

3.1 Monitor the IAI to ensure requests for NSF grant advances are limited to the
    minimum amounts required to meet actual, immediate cash requirements as required
    by its NSF grant agreements. (Interest cost savings to the U.S. Treasury of $14,971
    will be reported as “better use of funds.”)

3.2 Direct the IAI to comply with NSF grant agreements and its own IAI subaward grant
    provision limiting advances to subrecipients to the amount needed and timed in
    accordance with its cash requirements to carry out the purpose of the approved
    project. (Interest cost savings to the U.S. Treasury of $92,123 will be reported as
    “better use of funds.”)

3.3 Request IAI to develop accounting procedures to liquidate advances to the CRN
    subawardees based on actual expenditures reported in the financial reports.

3.4 Ensure that IAI has returned the $4,848 interest earned on excess NSF grant funds
    from June 2001 to June 2003 to the U.S. Treasury. (The refund of $4,848 will be
    reported as “questioned costs.”)

NSF Comments

NSF generally agrees with the audit finding and recommendations. Specifically, NSF has
instituted “Special Payment” requirements to more closely monitor IAI grant payments.
Additionally, NSF agrees to work with IAI to further educate them on the NSF grant
provision requiring that advances to subrecipients be limited to the amounts needed to
meet immediate cash needs, but once again emphasizes that the Foreign Grant General
Conditions (FGG) outline the awardee’s responsibilities. Further, NSF agrees to work
with IAI in developing appropriate accounting procedures to liquidate subrecipient
                                           25
advances in their accounting system. According to NSF, IAI has already remitted to the
U.S. Treasury the interest earned on its excessive balances of NSF funds, but notes that
the correct amount of the interest was $4,848, not the $5,815 cited in the audit report.

IAI Comments

While IAI concurs with the other audit recommendations, it states that recommendation
3.2 “will be difficult to put into practice and suggest that other more flexible and practical
mechanisms” be explored. But with respect to the remaining recommendations, IAI has
implemented a procedure to limit its drawdown of NSF grant funds to minimum amounts
to meet immediate cash needs and is in the process of establishing accounting system
controls to liquidate subrecipient fund advances. Also, it provided documentation of its
October 30, 2003 payment of $4,848 of earned interest to the U.S. Treasury.

OIG Response

NSF and IAI corrective actions to implement recommendations 3.1, 3.3, and 3.4 are
appropriate and should preclude premature IAI drawdown of NSF grant funds in the
future. Also, we have revised our audit report to reflect that the interest earned on the
excessive IAI cash balances was $4,848 instead of the $5,815 amount, originally
provided by the IAI Administrative and Financial Officer on September 26, 2003
pursuant to our specific request for such information. Nevertheless, we find the return of
the $4,848 to the U.S. Treasury to be fully responsive to the audit recommendation.

However, with regard to recommendation 3.2, we believe that IAI is contractually
obligated to take corrective actions to comply with the payment provision of both the
GC-1 and the FGG, which clearly require that subawardee payments be limited to
immediate cash needs. Otherwise, IAI needs to clearly specify what “more flexible and
practical mechanisms” would be for making such subawardee payments and whether
NSF would find such procedures to be in compliance with its payment requirements.
Furthermore, we believe that DGA needs to include a special condition in future IAI
research awards, to clearly require that the subject FGG payment provision is
flowed-down to IAI subrecipients. Currently, provision 6a of the FGG does not include
the payment provision (#10) as a flow-down requirement to subawardees.




                                             26
4. IAI Has Opportunities to Strengthen Management of Its Core Expenditures

The IAI expenditures for core support20 during fiscal year 2003 were generally used for
purposes consistent with the NSF grant objectives and were spent on the types of cost
typically allowable under federal cost principles. However, we found over $67,000 in
unreasonable educational allowance costs and $11,277 in unallowable Cuba- related
grant costs.

IAI Can Realize Savings by Revising Policies Regarding Educational Allowances

Pursuant to the NSF grant agreement, an awardee is required to prudently manage all
expenditures and actions affecting the award and ensure that such expenditures are
allowable, necessary and reasonable for the conduct of the project. However, we
estimate that the IAI paid educational allowances to its international employees that
exceeded actual school costs incurred by 74 percent or $67,276. Specifically, IAI’s
Employee Handbook and employee contracts provide for an annual education allowance
of $7,000 per child for primary or secondary school.21 However, based on a review of
actual school receipts that IAI maintained for one of its employees during 2001 through
2003, we found that the average annual educational costs22 actually paid by the employee
was $1,870 per child, or about 74 percent, less than the $7,000 IAI allowance provided.
Projecting the 74 percent overpayment rate to the total IAI educational allowance of
$91,408 actually paid to 3 IAI employees from 1998 to 2003, we estimated that NSF’s
core support awards incurred approximately $67,276 in excess educational allowance
costs for the period.

This occurred because neither the IAI Employee Handbook nor its employee contracts
limited the education allowance amount paid to the actual costs incurred. Current IAI
management stated that the educational allowance was an employee entitlement; and
since the organization has historically paid the $7,000 educational allowances, it has
continued this practice.

However, an educational allowance is more properly an employee benefit and not an
entitlement. Prudent business management practices would limit such a benefit to actual
costs incurred and there is no justifiable reason why an employee should reap a financial
gain from the willingness of its employer to provide such a benefit. Such claimed costs
in excess of educational expenses actually paid are not reasonable because they are not




20
         Award GEO 02 40107 provided $550,000 for IAI core support.
21
          IAI’s employee manual also provides for an educational allowance for preschool and undergraduate
university studies, but these allowances are new and started to be paid starting in fiscal year 2004.
22
          This average was based on receipts for actual school costs incurred for 2001 through 2003 at the best
private school in the area according to IAI staff. The exchange rate for this time period averaged 2.9 Brazilian
real (BRL) to 1 US dollar (US $) versus the exchange rate in 1998 that was 1.16 BRL to $1 US. As such, actual
school costs could have been greater in 1998, but because school receipts were not available, we were unable to
determine the amount.
                                                      27
“of a type generally recognized as ordinary and necessary for the operation of the
organization or the performance of the award” 23 as stated in the federal cost principles.

Furthermore, under the rules of the International Civil Service Commission, which are
applicable to United Nations (UN) employees, an education grant is limited to no more
than 75 percent of the actual receipted educational costs, subject to a maximum amount.
Also, the UN limits education grants to internationally recruited staff members who are
serving outside of their home country. Since the IAI staff considers themselves to be
international employees, like United Nations employees, we believe that the IAI
educational allowance should be similarly limited to 75 percent of actual costs and not
provided to staff members who are from Brazil. Also, given that actual private education
costs in Brazil are significantly less than the $7,000 IAI allowance, we believe that IAI
should establish a more reasonable maximum amount for its educational allowances and
periodically update the amount.

Recommendations

We recommend that the Assistant Director, GEO, in consultation with the Division
Director, DGA, work with IAI’s Financial and Administrative Ad Hoc Committee (FAC)
to ensure that IAI:

4.1 Revises its Employee Handbook limiting educational allowances to (a) international
    staff serving outside of their home country and (b) 75 percent of actual receipted
    expenses incurred up to a specified maximum amount. The maximum amount
    should be based on a documented survey and analysis of local school costs and be
    periodically adjusted based on such surveys. (The $67,276 will be reported as
    “better use of funds.”)

4.2 Revises IAI employee contracts to be consistent with changes in educational
    allowances made pursuant to recommendation 4.1 above.

NSF Comments

While NSF agrees with the audit finding and recommendations, it notes that the $67,000
amount cited as IAI payment for excessive educational allowances cannot be verified.
Nevertheless, NSF states that the IAI’s Financial and Administrative Ad-Hoc Committee
(FAC) is considering developing procedures requiring the payment of educational
allowances based on actual receipts rather than in advance. In establishing such new IAI
educational allowance policy, the FAC will consider the policies of other
intergovernmental organizations and local school costs.




23
       Definition of reasonable grant costs pursuant to paragraph A.3.a. of Attachment A, General Principles,
of OMB Circular A-122, Cost Principles for Non-Profit Organizations.
                                                     28
IAI Comments

IAI does not state its position with the audit finding or recommendations; only that it is
working with the FAC to finalize the IAI Employee Manual, which includes provisions
for the employee educational allowance.

OIG Response

Based on NSF comments, we have revised the audit finding to more clearly reflect the
methodology used for determining the $67,000 in excessive IAI educational allowances
reported. Furthermore, we believe that both NSF and IAI proposed corrective actions are
appropriate and should limit IAI educational allowances to reasonable amounts actually
incurred for such expenditures.

Unallowable Cuba Travel Costs Charged to NSF Grant Funds

Pursuant to the Trading With the Enemy Act, the United States Government instituted
economic sanctions against the Cuban Government by issuance of the Cuban Assets
Control Regulations in 1963. The basic goals of the economic sanctions were to isolate
the Cuban Government economically and deprive it of U. S. dollars. The regulations are
still in force today. As such, the NSF Program Manager stated that the IAI was notified
and clearly understood that NSF grant funds should not be used for any of the Institute’s
expenditures associated with Cuba.

However, the IAI inappropriately used its NSF funds to pay $1,277 in unallowable costs
for the Executive Director’s travel to Cuba in March 2003. Additionally, in October
2002, the IAI improperly paid $10,000 for Cuba-related costs from another NSF grant
(ATM 02 26420).24 However, IAI adjusted these 2002 charges in April 2004 when
brought to their attention during our audit.

These Cuba-related costs were mistakenly charged to NSF grants because IAI’s
accounting system does not have the capability of capturing unallowable NSF grant costs
in an account separate from its total grant disbursements. Also, NSF included a special
grant condition prohibiting the use of grant funds for costs involving Cuba in only one of
the above two awards. Similarly, we found that NSF has not consistently included such a
special Cuba condition in four of its other active awards to IAI.25 Given the clear U.S.
economic sanctions against the Cuban government, all NSF grants to IAI should include
a special award condition clearly specifying that grant funds cannot be used for
expenditures associated with Cuba. Such a special condition is essential to ensure that
NSF can judicially enforce IAI compliance with federal regulations and laws prohibiting
Cuba expenditures because the NSF grant agreement is the legal binding contract
between NSF and its awardees.



24
         Award ATM 02 26420 awarded $360,000 for the Small Grant Program.
25
        The following active NSF grants to IAI did not include the required special condition for Cuba-related
costs: GEO 03 42307, ATM 03 41783, ATM 02 26420, ATM 99 07233, and ATM 97 29981.
                                                      29
Recommendations

We recommend that the Division Director, DGA, in consultation with the Assistant
Director, GEO:

4.3 Direct the IAI to establish an account that separately tracks all Cuba-related expenses
    to ensure that NSF grant funds are not used for such purposes.

4.4 Amend all existing NSF grant agreements to IAI to include a special condition
    prohibiting the use of grant funds for expenditures associated with Cuba unless a
    license is obtained from Office of Foreign Assets Control at the U.S. Department of
    Treasury.

4.5 Determine whether such a special Cuba award condition is required to be
    flowed-down in IAI subaward agreements for NSF research funds and amend NSF
    agreements, as appropriate.

4.6 Ensure that all NSF grants officers are notified of the U.S. requirement to include
    such a special condition associated with Cuba expenditures in NSF awards to foreign
    organizations, whenever applicable.

We recommend that the Division Director, DGA, in consultation with the Division
Director, Division Institution and Award Support (DIAS):

4.7 Resolve the $1,277 and $10,00026 in questioned Cuba-related costs claimed against
   ATM-0240107 and ATM-0226420, respectively. (The $11,277 will be reported as
   “questioned costs.”)

NSF Comments

NSF generally concurs with the audit finding and recommendations. Specifically, NSF
agrees to amend all IAI grants to include a special Cuba provision and states that such a
special provision will also be applicable to IAI subawardees. Additionally, DGA, GEO,
and the Office on International Science and Engineering (OISE) will work together to
develop an “appropriate protocol related to any expenditure of funds associated with the
country of Cuba.” When developed, DGA staff will be educated on the new protocol to
ensure that all foreign awards include the required special grant condition. However,
NSF notes that while IAI has always been directed to ensure that no U.S. funds were used
for Cuba- related expenses, it states that to formally insist that IAI set-up a separate
account exclusively for Cuba-related costs would be difficult.

IAI Comments

The IAI specifies that corrective measures have been taken to implement audit
recommendations 4.3 and 4.7. In particular, the Directorate states that a separate account

26
         A $10,000 adjustment was made by IAI to ATM-0226420 (SGP) in April 2004 because of our
audit inquiries.
                                                30
was already in place to separately track Cuba-related expenditures and has submitted
documentation for an alternate “allowable” travel expense to replace the $1,277
questioned Cuba-related travel expenditure.

OIG Response

NSF and IAI corrective actions to implement audit recommendations 4.4 to 4.7 are
appropriate. NSF is to be commended for taking the initiative to develop a consistent
NSF protocol for handling Cuba-related expenditures for both its grantees as well as
subgrantees. When this protocol is established, however, we believe that DGA should
appropriately amend its Foreign Grant General Conditions (FGG) to include such a
protocol as a standard provision in all NSF foreign awards.

However, we believe that further IAI efforts are required to implement recommendation
4.3. While IAI states that a separate account to track Cuba-related costs is “already in
place,” our onsite review in June 2003 disclosed that IAI only has a separate account to
track its research grants to Cuba, not any of its other Cuba-related expenses, such as
travel expenditures. Furthermore, we found that even its separate account for Cuba
research expenses was not totally effective, as evidenced by the $10,000 Cuba-related
research expenditure, identified during our audit, which was improperly charged to
NSF’s Small Grant Program. We believe that it would not be difficult for IAI to establish
a separate cost code in its accounting system to separately track any and all Cuba-related
expenditures. Without such a separate cost accounting control, IAI has no assurance that
these types of costs are not charged to U.S. funds, thereby violating not only its NSF
grant agreement, but also U.S. Law.

If IAI is not technically able to establish such a separate account that will effectively
track Cuba-related expenditures, then IAI must propose an alternative solution for
achieving the same purpose. Both IAI and NSF must recognize the importance of this
issue because the expenditure of U.S. funds for Cuba-related expenditures is an explicit
statutory violation of U.S. Law. While we recognize NSF’s difficulty as one IAI country
representative to require specific IAI actions, it must continue to work closely with IAI as
a grantor agency to establish adequate controls to preclude such expenditures.




                                            31
                             OTHER CONSIDERATIONS

In addition to the findings and recommendations discussed, we identified some issues
related to employee benefits that we believe warrant NSF’s attention. Although we have
not made specific recommendations, we suggest NSF consider and evaluate these issues
and take appropriate steps as deemed necessary.

Some IAI Employee Benefits Are More Generous Than Comparable United Nations
Benefits

The IAI incurred significantly increased salary and benefit costs because 6 of its 13 staff
were considered “international” employees pursuant to its establishing agreement.
Additional IAI employee benefits received by “international” employees include housing
allowance, education allowance, and home leave in addition to typical employee benefits
such as annual and sick leave and health and life insurance. However, our analysis
showed that the IAI benefits for housing allowance, educational allowance, health
insurance, and life insurance are more generous than comparable UN benefits for their
professional staff.

The IAI employee benefits are established in its Employee Handbook and the IAI
employee contracts. Similar to UN employees, the 6 IAI “international” employees
receive salaries referenced to the UN salary scale, which are applied worldwide and
denominated in U.S. dollars. We found that the UN salary scale provided IAI salaries
that were more generous than those of a comparable non-profit European organization,
which was also a NSF foreign awardee with basically the same scientific mission. For
example, the Executive Director of both organizations had similar responsibilities,
however, the IAI Executive Director had an annual salary that was 20 percent greater
than his European counterpart. Also, the IAI salary was denominated in US dollars,
while the European salary was denominated in the local currency. The major difference
in the 2 organizations was that IAI was an inter-governmental treaty organization and the
European organization was considered a non-profit organization. Additionally, the
European organization’s employees did not receive other “international” benefits such as
housing allowance, educational allowance, and home leave, like the IAI international
staff.

We found that the IAI housing allowance was slightly greater than the UN allowance.
While IAI reimburses 50 percent of actual housing costs, the UN reimburses only up to a
maximum of 40 percent. During fiscal year 2003, IAI incurred housing costs of $23,000
for 4 of its 6 “international” employees. Similar to UN standards, the remaining two
“international” employees from Brazil were not eligible for housing allowance because
they were serving in their home country. However, our analysis of the housing allowance
disclosed that IAI does not have any data supporting the calculation of the maximum
housing allowance of $800 per month to document its reasonableness. The actual fiscal
year 2003 housing allowance paid to its 4 employees ranged from a low of $416 to a high
of $740 per month, a variance of about 50 percent. According to IAI officials, they were
not aware of the original basis for establishing the dollar value of the housing allowance
and have not periodically evaluated its reasonableness over the years.

                                            32
Also, the IAI provides educational allowance to its 6 “international” employees that are
more generous than UN benefits. Specifically, the IAI provides educational allowance
for its 2 employees from Brazil, where the UN does not provide such a benefit to
employees serving in their home country. Also, the IAI educational allowance provides
for preschool education of $1,200 annually, while the UN benefits do not. These more
liberal education allowances can potentially result in significantly increased IAI costs
because educational costs can be substantial. For example, in fiscal year 2003,
educational costs for just 2 of the 6 IAI staff totaled $17,500, a rather significant amount.
The remaining 4 employees did not have children eligible for the allowance during fiscal
year 2003. However, during the current fiscal year, IAI instituted additional educational
allowances of $7,000 for undergraduate college costs and the $1,200 for pre-school costs.
IAI employees have been paid these new educational allowances during fiscal year 2004.

Furthermore, the IAI benefits for life and health insurance for “international” staff are
also more liberal than UN benefits. Staffs at the UN pay the full cost of group life
insurance premiums, where the IAI, not its staff, pays for the full costs of life insurance
premiums for its international staff, which has a benefit equal to three times their annual
salary. Additionally, IAI pays the full costs of an employee’s health insurance, while UN
employee benefit provisions state that UN organizations only “subsidize” the cost of
health insurance premiums. According to UN officials, the subsidy for health insurance
varies by each UN agency and duty station and is based on a percentage of an employee’s
salary. For example, for an employee with an annual salary of $60,000, the UN monthly
premium for Van Breda health insurance in Brazil, the same company used by IAI, was
subsidized about 50 percent in 2004. As such, using the UN standards, the 6 IAI
“international” employees would have been required to contribute $19,000 of the total
$38,000 costs incurred for health insurance during fiscal year 2003.

A comparison of the IAI international and traditional employee benefits with similar UN
benefits is summarized in the table on the following page.




                                             33
         Comparison of IAI International Employee Benefits to UN Benefits

Various Employee Benefit             IAI Benefits                    UN Benefits

Salary                        Denominated in US dollars      Denominated in US dollars

   International Benefits

Educational allowance
   • 18 months to 5 years     $1,200 per child               No benefits for pre-school.
   • Primary & secondary      $7,000 per child               75% of actual cost up to a
   • Undergraduate college    $7,000 per child               maximum by location that is
                                                             updated every 2 years. Only
                              Paid for international staff   paid to staff members
                              including members serving      serving outside of their home
                              in their home country.         country.
Housing allowance             50% of actual costs up to      Included as an element of
                              maximum of $800                cost of living adjustment for
                              monthly. No provision for      each UN duty station that is
                              updating the allowance.        adjusted every 4 or 5 years.
                                                             Maximum amount is 40% of
                                                             actual rental costs paid.
Home leave                    Every 2 years                  Every 2 years

    Traditional Benefits

Annual leave                  20 days annually               30 days annually
Sick leave                    24 days annually               Varies by UN agency
Maternity leave               16 weeks paid                  16 weeks paid
Health insurance              Employee not required to       Employee contribution to
                              contribute.                    premium varies by duty
                                                             station and health plan, but is
                                                             based on salary level (50% in
                                                             Brazil for Van Breda
                                                             insurance at $60,000 salary)
Life insurance                Employee not required to       Employee pays total
                              contribute.                    premium.
Pension benefits              Employee contributes 1/3       Employee contributes 1/3
                              and IAI contributes 2/3, up    and UN contributes 2/3,
                              to maximum of 21% of           current rate is 23.7 percent
                              salary




                                         34
Salaries and benefits is the biggest cost item in IAI’s core budget. For fiscal year 2004,
IAI’s budget request for salaries and benefits was $543,020 or 58 percent of the total
budget of $939,170. Of this amount, the fringe benefit rate, which includes the employee
benefits, is about 50 percent of the salary costs. Since IAI’s budget is not particularly
large, seemingly small items of expense such as employee benefits can have a big impact.
While we understand the need to have attractive compensation packages to attract quality
employees, the extra costs of benefits for “international” employees beyond comparable
UN standards may be putting a strain on IAI’s budget.

IAI’s Financial and Administrative Ad Hoc Committee (FAC) has directed the IAI to
establish position descriptions for its international staff and to contract for a survey of
comparable positions and compensation packages at other international organizations in
Brazil. We believe that such a survey should assist in providing information to evaluate
the reasonableness of salaries and benefits provided to IAI “international foreign” staff.
Also, it would be helpful for such a survey to determine the methodology used by similar
organizations to establish the monetary amount of such employee benefits and the
procedures for periodically reviewing and updating such benefits. NSF should continue
to work with the FAC to actively monitor to ensure that such a survey is performed and
that appropriate corrective actions are taken to establish reasonable IAI salaries and
benefits for its international staff.

NSF Comments

No comments provided.

IAI Comments

While IAI’s position is that many of the UN procedures and rules can be considered and
adapted to take into account the peculiarities of its expatriate staff, it believes that the
comparison table is unfair because it includes only the IAI benefits that are considered
favorable against the UN system. For example, the IAI notes that the UN provides an 8
percent increase in salary for staff with dependents instead of the modest IAI dependent
allowance and a maximum educational allowance of $9,750 versus the IAI allowance of
$7,000. In summary, the IAI suggests that a comparison should include all benefits.
Nevertheless, the IAI states that it has engaged an independent consulting firm to conduct
a survey of compensation packages for comparable organizations in Brazil.

OIG Response

We found the UN common system for salaries, allowances, and benefits to be extremely
complicated. There are many factors that are considered in the UN computation of
salaries and benefits and these factors vary significantly depending on the many duty
stations available worldwide. These factors include such items as exchange rate
fluctuation and changes in the local consumer price index that are updated monthly for




                                            35
post adjustment indices for the various duty stations. As such, the information presented
as “Other Considerations” was not intended to be a comprehensive and thorough
comparison of IAI salaries and all benefits to the UN system. We are confident that the
survey of compensation packages for comparable organizations in Brazil, as suggested by
the FAC and recently contracted out by IAI to an independent consulting firm, will
indeed provide such a thorough analysis.




                                           36
                                                                       Appendix A



    Status of IAI Core Contributions By Member Country For Fiscal Year 2003


                      Commitment          Paid        Unpaid FY 2003 Cumulative Unpaid as of
                       for FY 2003   during FY 2003    Commitment        June 30, 2003

Argentina              45,000.00                         45,000.00             125,025.00
Bolivia                 5,000.00                          5,000.00               5,000.00
Brazil                 80,000.00       (80,000.00)            0.00             (21,735.88)
Canada                115,000.00      (115,000.00)            0.00                   0.00
Chile                   5,000.00       (15,000.00)      (10,000.00)             10,000.00
Colombia               10,000.00                         10,000.00              30,000.00
Costa Rica              5,000.00       (20,238.45)      (15,238.45)             (8,138.99)
Cuba                    5,000.00                          5,000.00              10,066.56
Dominican Republic      5,000.00                          5,000.00              30,000.00
Ecuador                 5,000.00       (10,000.00)       (5,000.00)             15,000.00
Guatemala               5,000.00                          5,000.00              30,000.00
Jamaica                 5,000.00        (5,000.00)            0.00               5,000.00
Mexico                 55,000.00                         55,000.00              52,004.50
Panama                  5,000.00        (5,000.00)            0.00               5,000.00
Paraguay                5,000.00                          5,000.00              35,000.00
Peru                    5,000.00                          5,000.00              25,000.00
Uruguay                 5,000.00                          5,000.00              25,000.00
USA (*)               550,000.00      (550,000.00)            0.00                   0.00
Venezuela              30,000.00                         30,000.00             121,829.34

Total                $945,000.00     ($800,238.45)    $144,761.55             $494,050.53




                                      37
                                                                                   Appendix B




Memorandum


Date:           September 14, 2004

From:           XXXXXXXXX, Directorate for Geosciences
                XXXX, Division of Grants and Agreements

Subject:        Draft Report on Audit of the Inter-American Institute for Global Change
                Research (IAI)

To:             XXXXXX, Senior Audit Manager, OIG

This is in response to your request for review and comment on the draft report dated August 6,
2004, of the OIG Audit of the Inter-American Institute for Global Change Research. We are
providing a consolidated NSF response prepared in consultation with cognizant staff members of
the Directorate for Geosciences, the Division of Grants and Agreements and the Division of
Financial Management.

Before addressing the specific recommendations, we would like to make some general
observations.

The National Science Foundation interacts with the IAI, not only as a grantor, but also, more
importantly, on behalf of the United States. The United States participates in the IAI under the
international Agreement Establishing the Inter-American Institute for Global Change Research
(IAI), as signed by Dr. D. Allan Bromley, Science Advisor to the President, on May 13, 1992.
This Agreement is considered a treaty by most member states and has the status of an Executive
Agreement for the United States. NSF's Directorate for Geosciences (GEO) has the lead for U.S.
interaction with and participation in the IAI, its meetings, its programs, and related activities.
The Foundation also administers U.S. funding for the IAI administration and programs on behalf
of the United States.

In order to fulfill these responsibilities, NSF interacts with the IAI, its officers, and its staff on a
day-to-day basis at a number of levels. Staff from the Directorate for Geosciences, the Division
of Financial Management (DFM) and the Division of Grants and Agreements (DGA) also
interact with the IAI on issues related to grant administration and oversight.

In addition, GEO elicits the views of other Federal agencies on all important IAI and IAI-related
issues and invites input from these agencies in preparation of U.S. Government positions on


                                               38
                                                                               Appendix B

these issues. We are charged by the Department of State with implementing these positions
through our leadership of U.S. Delegations to the IAI Conference of the Parties (CoP) and
Executive Council (EC).

To meet these objectives we work closely with other interested IAI Member States. For
example, GEO has consistently led efforts within the IAI to establish and maintain effective
procedures for their management of U.S. and other States' funds. We continue to press the IAI to
further improve these procedures. Our efforts over the past few years have led to the updating
and development of a series of manuals, including a project management manual, intended to
enable the IAI to improve its management capability and to assure that IAI management meets
reasonable standards.

The recommendations presented to us by the OIG in many cases do not reflect the fact that NSF
acts both as a grantor to the IAI and as an individual member of the IAI. We will continue to
work with the IAI to see that they handle and process NSF-U.S. funds in a manner generally
consistent with U.S. Government and NSF rules and procedures for handling of such monies as
spelled out in the applicable terms and conditions. However, in most areas GEO has to develop
consensus support for our views by convincing other IAI Member States of the merit of NSF and
U.S. positions. Thus, while we lead many IAI programs and activities in a number of areas, we
cannot simply "direct" or "require" the IAI to act exactly as we would like.

The Audit contains factual errors that have not been corrected. While these errors do not change
the general conclusions and recommendations with which we concur, they are relevant to the
tone and context of the findings. These factual errors can be summarized as follows:

1. The third paragraph of the Executive Summary (page i) and the first paragraph of the first
   finding (page 4) state that the "...IAI's 19 member countries have paid only an average of 80
   percent of their promised voluntary core support contributions." The first finding later states:
   "Historically, since 1994, member countries have paid an average of 80 percent of their
   pledged commitments." These statements are inaccurate.

   First, the correct numbers for the last seven years are as follows: 1994-1997, 97.89 percent;
   1997/1998, 94.06 percent; 1998/1999, 91.95 percent; 1999/2000, 93.58 percent; 2000/2001,
   90.68 percent; 2001/2002, 90.05 percent; 2002/2003, 87.30 percent; 2003/2004, 93.89
   percent. The 80 percent figure is an internal IAI estimate of a "worst case" scenario. Second,
   this phrasing fails to distinguish between individual payments and the total: States that
   contribute have usually done so at the 100% level. It is the failure of particular individual
   States to contribute that lowers the percentage, rather than each State incompletely
   contributing at an average 80 percent level. Third, the Audit fails to recognize that the U.S.
   Department of State required the IAI to have voluntary contributions rather than obligatory
   contributions when the funding structure was being discussed, approved, and established by
   Governments. GEO considers Member State non-contribution to be a serious issue affecting
   the Directorate's cash reserves - that is not in dispute - and GEO has always been actively
   involved in efforts to encourage contributions, working within the Department of State's
   constraint that required the IAI to have voluntary, rather than obligatory contributions.




                                            39
                                                                                Appendix B

2. The third paragraph of the Executive Summary (page i) and the second paragraph of the first
   finding (page 4) state that the "...IAI has operated on an average annual budget of $2.6
   million or 81 percent less than the $14 million budget, originally envisioned..." The first
   finding later states "the annual IAI budget has averaged only $2.6 million instead of $14
   million, as originally envisioned..." These statements are inaccurate.

   First, the $14 million annual budget figure is apparently taken from a February 1991 internal
   U.S. interagency planning document transmitted from NSF to the Office of Science and
   Technology Policy (OSTP) discussing concepts for a regional research institute in the
   Western Hemisphere (that was eventually to become the IAI). This number was never
   officially presented to or discussed with other IAI Member States, and their approval for such
   a figure was never sought. The official U.S. Government position presented in July 1991 by
   OSTP Director Allan Bromley and U.S. Geological Survey Director Dallas Peck was based
   on a U.S. offer of $2 million from the FY1992 budget request to support all three regional
   research institutes. Second, the $2.6 million figure is only the U.S. contribution, and omits
   other Member States contributions to the IAI budget. The Audit misrepresents this issue by
   deliberately minimizing the numerator and maximizing the denominator. GEO considers the
   current operating budget to be insufficient for the scientific quality of proposals received, but
   recognizes that constraints on the U.S. and other Member States' budgets will make this a
   persistent problem. Again, GEO continues to be engaged in efforts to increase the available
   budget for IAI research and operations.

3. The third paragraph of the Executive Summary (page i) and the second paragraph of the first
   finding (page 4) state that the "...IAI incurred a $121,543 operating loss in fiscal year 2003..."
   The first finding later states: "Specifically, an analysis of IAI's fiscal year 2003 audited
   financial statements disclosed that the Institute received $800,238 in country contributions
   but expended $921,772 in core operational expenses, resulting in an operating loss of
   $121,534 for the year." These statements are inaccurate.

   The IAI in fact had an operating gain of $34,771 for the year. The Audit fails to apply a basic
   accounting principle in reaching this figure by including Brazil's $156,305 contribution of
   support for certain IAI Directorate expenses in the expense category, but then failing to
   include that same contribution as income. GEO recognizes that the fundamental point
   remains accurate: recurrent operating losses do threaten the cash reserves and the operation
   of the Institute, but the point should be made using figures from a year in which the IAI did
   actually incur a loss.

The Audit contains other statements that we have been unable to verify, which are summarized
as follows:

1. In the fifth paragraph of the Executive Summary (page ii) the statement is made that refers to
   "payment of $67,000 in excessive educational allowances."

2. The first full paragraph on page 7 includes the statement that IAI core expenditures totaled
   "an average of $1,009,692 annually."




                                             40
                                                                               Appendix B

3. The first full paragraph page 15 and Recommendation 2.5 refer to the amount of $57,712.
   We believe that there is some discrepancy over whether that amount should be $51,712.

4. The third paragraph on page 21 and Recommendation 3.4 refer to interest earned in the
   amount of $5,815.

In general, the OIG recommendations often fail to distinguish between NSF roles as grantor and
as U.S. representative to the IAI. These recommendations similarly often fail to recognize that
NSF is already involved in IAI efforts to broaden its funding for its operations and research from
other than U.S. sources, to improve its financial management system, to improve its staffing
arrangements, etc. The recommendations, nonetheless, identify a number of areas in which it is
essential that the IAI modify its existing rules and processes or establish new ones so that the IAI
can assure NSF and, through us, the United States that funds are handled in a manner generally
consistent with U.S. Government and NSF rules and procedures. It should be noted that many of
the OIG recommendations, if implemented fully, have implications for future increases in the
administrative costs associated with the IAI.

To this end we list below the OIG recommendations in order and provide specific comments in
response thereto:

Recommendations

We recommend that the Assistant Director, Directorate for Geosciences (GEO):

1.1    Continue to work with the CoP and the EC in aggressively promoting and overseeing the IAI
       Directorate's efforts to obtain payment of core support contributions and additional
       research funding from alternative outside sources. Specifically, the IAI Directorate should
       be directed to develop a comprehensive strategy for obtaining additional funds with
       established milestone dates for accomplishment.

Response: The Directorate for Geosciences shares this concern. We note that the IAI CoP and
EC have discussed this issue at each of their meetings, and have convened numerous groups to
work on the issues of Member State contribution and external fund raising at the persistent
urging of the U.S. and other delegations. The CoP/EC convened groups to consider Member
State contributions in 2001 and 2003, and groups to pursue additional Global Environmental
Facility (GEF) funds (1997, 2000), United Nations Development Programme (UNDP) funds
(1997), and several foundations (1997, 2001), in coordination with ongoing efforts by the
Directorate.

Most recently, we proposed that an ad hoc group be established to aid the IAI Directorate in
formulating a strategy for dealing with the core support contributions. This ad hoc group met in
February and June of 2004. We have asked that the Director produce a strategy document and a
timeline as a result of this process. Final action on a strategy for obtaining funds is the
responsibility of the CoP and while the U.S. can aid the IAI Directorate and exhort fellow
Member State delegations, it is the Directorate, acting on behalf of the IAI, which is ultimately
responsible for collection of dues from sovereign nations.



                                             41
                                                                                Appendix B




1.2    Propose to the CoP and EC that, if additional funding is not obtained, a re-evaluation of IAI
       mission, goals, and staffing levels be performed to redefine the IAI's objectives and
       eliminate current surplus grant-making capacity.

Response: GEO concurs that if additional funding is not obtained, the CoP and EC may need to
re-evaluate the programs of IAI. However the mission and goals of the organization reflect the
desire to collaborate in scientific study of global change and we would not propose that they
change. As documented in CoP minutes, the IAI's staffing levels have been actively discussed
several times in the context of assuring adequate program oversight while taking into account
contribution levels. As the OIG has noted in the text on pages 7 and 9, IAI staff fulfill other
responsibilities in addition to managing the IAI grants process. It should also be kept in mind
that the IAI Directorate consists of a very small - in our view, a minimal - staff for responsible
science program and financial management that requires expertise in a range of areas for which
individual specialists are required.

1.3    Work with the OSTP and the Department of State in re-evaluating the United States
       commitment to provide continued research funding to IAI. Consideration should be given
       to the benefits of IAI funded research compared to the United States' overall global change
       research priorities.

Response: This is a matter that is not appropriate for OIG comment. Establishment, updating
and achievement of U.S. overall global change research priorities are the responsibility of a long-
standing, very active Federal interagency process in which NSF plays a strong role. Assessment
of the IAI's scientific performance in comparison with these U.S. priorities is similarly the
responsibility of this interagency process. This process has assured an appropriate match of IAI
and U.S. global change research priorities primarily through vigorous and wide participation of
U.S. scientists in the review and evaluation of research proposals submitted to the IAI. All of
these efforts are continuing.

Recommendations

We recommend that the Assistant Director, Directorate of Geosciences (GEO), in conjunction with
the Division Director, Division of Grants and Agreements (DGA):

2.1 Work with the CoP to require the IAI to develop and implement subaward management and
    monitoring procedures that at a minimum address the items specified below. NSF should
    provide technical assistance to IAI in developing such new procedures.

        a. Standards for subawardee financial management of grant funds including
           incorporation of specific cost principles and audit requirements into the subaward
           agreement. These cost principles should clearly define the type of documentation
           necessary to support costs and type of costs that are not allowable.

        b. Pre-award evaluation of the financial and administrative capability of subawardees to
           manage NSF grants funds by the IAI finance officer.

                                             42
                                                                                Appendix B



         c. Post award monitoring procedures and techniques to include reviewing grantee
            compliance with all IAI award terms and conditions, developing a system for tracking
            and documenting receipt and review of annual financial and scientific reports; and
            performing on-site visits and periodic audits of high-risk subawardees.

Response: First, it should be noted that the two awards referenced in this report were subject to
two different sets of award terms and conditions. The Grant General Conditions (GC-1) were
used for award ATM-9907323 and the Foreign Grant General Conditions were used for award
GEO-0240107. All future awards will fall under the Foreign Grant General Conditions.

We refer back to the general comments at the beginning of this document to the effect that these
recommendations do not recognize or acknowledge the extensive efforts that NSF has
undertaken to assure that the IAI improves its management process in a responsible manner. As
previously stated, NSF has and will continue to work with IAI to assist in the management and
oversight of these NSF projects. Since 2001, when the IAI self-identified many of these issues,
NSF officials took decided proactive steps to assist this organization. NSF invited the IAI
Administrative and Financial Officer to visit NSF in March 2001 and arranged meetings with
GEO, DGA, CPO and DFM representatives. During this visit, extensive discussions on OMB
Circulars, the award budget, and the award terms and conditions were held. In June 2001,
representatives from DGA and NSF’s Cost Analysis and Audit Resolution Branch (CAAR) site
visited the IAI for a week; and further award discussions were conducted. Even later, a second
site visit was made by CAAR and Division of Financial Management (DFM) representatives to
discuss financial accountability and cash flow issues. These visits were all indicative of proactive
technical assistance aimed at ensuring successful management of the project. The IAI is also
developing a Project Management Manual and updating its Accounting Manual to address these
issues. Both documents will be reviewed by GEO, DGA, DFM and other NSF entities as
appropriate.

2.1.a. Sub-awardee monitoring requirements and responsibilities are currently outlined in
supporting documents. Sub-awardee cost principles and audit requirements are covered under the
applicable Grant General Conditions. This article addresses sub-awardee flow-down provisions.
In addition, OMB Circular A-110, Subpart C. 41, states the following:

“The recipient is the responsible authority, without recourse to the Federal awarding agency,
regarding the settlement and satisfaction of all contractual and administrative issues arising out
of procurements entered into in support of an award or other agreement.”

In addition, per OMB Circular A-110 Subpart C. 51:

“(a) Recipients are responsible for managing and monitoring each project, program, sub-award,
function or activity supported by the award. Recipients shall monitor sub-awards to ensure sub-
recipients have met the audit requirements as delineated in Section .26.”

2.1.b & c.- Pre-award evaluation of the financial and administrative capabilities of sub-awardees
is rarely feasible or practical, and is not a prerequisite for NSF to make an award. In addition, on-



                                             43
                                                                                Appendix B

site visits to and audits of such organizations are not always indicated or feasible at the time of
pre-award.

2.2    Assess the adequacy and ensure implementation of the subaward monitoring procedures,
       required by recommendation 2.1 above, prior to approving new NSF awards to fund
       additional IAI research programs.

Response: While we cannot fully “ensure implementation” of sub-award monitoring procedures
prior to award, for future awards DGA will work with IAI to further educate this awardee as to
the requirements stipulated in the Foreign Grant General Conditions. GEO and DGA will
continue to work together with the IAI to provide guidance for subaward monitoring in a manner
consistent with the terms and conditions of the overall award and thus also consistent with NSF
policies.

2.3    Require the IAI to assess all CRN subawardees and take necessary corrective actions to
       ensure the adequacy of financial management controls over NSF grant funds.

Response: The Foreign Grant General Conditions outline the awardee’s responsibilities under
federal awards. DGA and GEO will work to further educate the awardee to these requirements.
This process should be improved greatly as the IAI moves to implement the management
manuals that were referred to in the general comments. As was noted earlier, it may prove
difficult, in some cases, to “require” a treaty organization such as IAI to carry out certain
activities as described here and throughout the draft.

2.4    Work through the CoP to direct the IAI to assign primary responsibility for financial
       oversight and monitoring of CRN projects to the IAI finance officer.

Response: According to the IAI Agreement, ultimate responsibility in this area lies with the
Director, who delegates this primary responsibility for operational financial oversight and
monitoring to the Administrative and Financial Officer, whose position description includes
these responsibilities. We thus see no need for further action in this area.

2.5    Direct the IAI to obtain the return of $57,712 in unspent grant funds from the subrecipient
       (CRN project 038) and apply the funds to another CRN project. If the subrecipient does not
       return the funds, IAI is still obligated to reduce $57,712 of expenditures claimed under the
       NSF award.

Response: NSF agrees with a qualification, noting that the exact amount of this unspent amount
is in dispute ($57,712 versus $51,712).

2.6    Direct IAI to require CRN Project 061 improve its financial management system for fund
       control and accountability of its CRN grant funds by segregating the responsibilities for
       approving and disbursing funds, establishing grant agreements with the two other CRN
       participating research institutions, and monitoring expenses for the pass-through funds
       provided to these participating research institutions.




                                             44
                                                                                  Appendix B

Response: NSF agrees with the recommendation and will continue to communicate these
concerns to the IAI.

2.7    Require that a portion of future NSF research funds be specifically dedicated for subaward
       monitoring activities such as site visits and subgrantee audits.

Response: NSF concurs with the concern expressed, but not with the recommended solution.
NSF will work to ensure that future subawards are monitored and site visits are made when
appropriate, but audits should be the primary tool for such monitoring. In addition, it is our very
strong view that such monitoring, including site visits, should eventually be funded out of the
IAI core budget, and not exclusively from funds that NSF provides for research. As noted earlier,
with such NSF specification of use of award funds, a reasonable increase in the budgetary
request could be anticipated.

2.8     Direct IAI to ensure its staff receive appropriate training on federal grant requirements.

Response: NSF has worked closely for some time to assure that appropriate IAI staff are trained
regarding such grant requirements and we will continue to do so. It is noted that not all IAI staff
need be trained on U.S. Federal grant requirements. Here again, a reasonable budget increase
could be expected.

Recommendations

We recommend that the Division Director, DGA, in consultation with the Division Director, Division
of Financial Management (DFM):

3.1 Monitor the IAI to ensure requests for NSF grant advances are limited to the minimum amounts
    required to meet actual, immediate cash requirements as required by its NSF grant agreements.

Response: DFM has taken action to more closely monitor payments to the IAI, which is now
flagged with “Special Payment” requirements.

3.2 Direct the IAI to comply with NSF grant agreements and its own IAI subaward grant provision
    limiting advances to subrecipients to the amount needed and timed in accordance with its cash
    requirements to carry out the purpose of the approved project.

Response: The Foreign Grant General Conditions outlines the awardee’s responsibilities
under federal awards and DGA, DFM and GEO will work to further educate the awardee to these
requirements.

3.3 Request IAI to develop accounting procedures to liquidate advances to the CRN subawardees
    based on actual expenditures reported in the financial reports.

Response: NSF will work with the IAI on this issue.

3.4 Ensure that IAI has returned the $5,815 interest earned on excess NSF grant funds from June
    2001 to June 2003 to the U.S. Treasury.

                                              45
                                                                                 Appendix B



Response: On October 30, 2003, the IAI returned $4,848.22 in interest earned to the
Department of Health and Human Services. NSF notes that the exact amount of the interest is in
dispute.

Recommendations

We recommend that the Assistant Director, GEO, in consultation with the Division Director, DGA,
work with IAI's Financial and Administrative Ad Hoc Committee (FAC) to ensure that IAI:

4.1 Revises its Employee Handbook limiting educational allowances to (a) international staff
    serving outside of their home country and (b) 75 percent of actual receipted expenses incurred
    up to a specified maximum amount. The maximum amount should be based on a documented
    survey and analysis of local school costs and be periodically adjusted based on such surveys.

Response: GEO notes that the FAC is currently considering developing policies and procedures
to assure that allowable education costs are reimbursed on the basis of receipts and are not
simply paid in advance. In developing the new IAI policy on educational allowances, the FAC
will consider policies of other intergovernmental organizations and local school costs.

4.2 Revises IAI employee contracts to be consistent with changes in educational allowances made
    pursuant to recommendation 4.1 above.

Response: When the new policy is in place, employee contracts will be amended as appropriate.

We recommend that the Division Director, DGA, in consultation with the Assistant Director, GEO:

4.3 Direct the IAI to establish an account that separately tracks all Cuba-related expenses to
    ensure that NSF grant funds are not used for such purposes.

Response: GEO has always insisted that the IAI ensure that no U.S. funds are used for Cuba-
related expenses. It is our understanding that, in the instance cited, the IAI incorrectly reported in
a FCTR that NSF funds had been used for Cuba-related travel, but that this accounting error has
been corrected. We will continue to insist that the IAI monitor and track its NSF expenditures. It
would be difficult for the U.S. to formally insist that the IAI set up a formal account exclusively
for another IAI Member State.

4.4 Amend all existing NSF grant agreements to IAI to include a special condition prohibiting the
    use of grant funds for expenditures associated with Cuba unless a license is obtained from
    Office of Foreign Assets Control at the U.S. Department of Treasury.

Response: NSF agrees with the recommendation. DGA, GEO and the Office of International
Science and Engineering (OISE) will work on the appropriate protocol related to any expenditure
of funds associated with the country of Cuba.




                                             46
                                                                              Appendix B


4.5 Determine whether such a special Cuba award condition is required to be flowed-down in IAI
    subaward agreements for NSF research funds and amend NSF agreements, as appropriate.

Response: Our response to recommendation 4.4 applies equally in this case.

4.6 Ensure that all NSF grants officers are notified of the U. S. requirement to include such a
    special condition associated with Cuba expenditures in NSF awards to foreign organizations,
    whenever applicable.

Response: DGA will work in consultation with OISE staff in further addressing this concern,
and in educating DGA staff to these issues.

We recommend that the Division Director, DGA, in consultation with the Division Director, Division
Institution and Award Support (DIAS):

4.7 Require IAI to return the $1,277 in unallowable Cuba travel costs claimed against ATM-0240107.

Comment: Our response to recommendation 4.3 applies equally in this case.




                                            47
  IAI’S DIRECTORATE COMMENTS ON THE DRAFT REPORT ON AUDIT OF INTER-
 AMERICAN INSTITUTE FOR GLOBAL CHANGE RESEARCH DATED AUGUST 6, 2004



The Directorate reviewed the above-mentioned report. Our position and comments on the
audit findings and recommendations are given below.

Following the request of the Senior Audit Manager we include a section on Inaccuracies and
on Comments to each one of the recommendations. We also commented on the last section
of the report entitled “Other considerations”.

Regarding the findings recapitulated in the “Executive Summary” our comments are included
in the replies below. We should mention, however, that the statement indicating “… IAI has
operated on an average annual budget of $2.6 million or 81 percent less than the $14 million
budget, originally envisioned for a small regional research network in Latin American” appear
to be an overstatement, in our view. The figure of $14 million was just a very preliminary
vision of the expected funding in the original discussions related to the creation of IAI, more
than a decade ago.




                                              49
INACCURACIES


Page i, 3rd paragraph and page 7, 4th paragraph

The historical average of contributions paid by the member counties is 86% of the promised
contributions. 80% of the promised contributions is the worst scenario that can be analyzed.
Depending on the level of actual expenditures, two continued years receiving 80% of the
promised contributions may consume all the reserve.


Page i, 3rd paragraph and page 7 ,3rd paragraph

In fiscal year 2002/2003, the amount of $881,772 reported under “Management and General
Expenses” includes the donated services (“Donated Services, Utilities and Use of Fixed
Assets”) from INPE for an amount of $156,305.

To make the calculation of the operating gain/loss it is necessary to consider INPE’s
contribution as an income to compensate the in-kind expenses reported under “Management
and General Expenses”. After adding this amount, there is an operating gain of $34,771.

Contributions from Member Countries                                800,238
“In-kind” contribution from INPE                                   156,305
                                  TOTAL INCOMES                    956,543
Core Budget - SGP Program                                          (40,000)
Core Budget - M & G Expenses                                      (881,772)
               TOTAL CORE OPERATIONAL EXPENSES                     921,772
                         OPERATIONAL GAIN / (LOSS)                  34,771



Page 15, 2nd paragraph AND Recommendation 2.5

The amount to be returned by CATHALAC is $51,712 instead of 57,712. The calculations are
as follows:

              REPORTED EXPENSES
                (without overhead)              OVERHEAD (10%)                 TOTAL
YR 1                 90,255.41                      9,025.54                   99,280.95
YR 2                105,602.25                     10,560.22                  116,162.47
YR 3                 51,131.16                      5,113,12                   56,244.28
TOTAL               246,988.82                     24,698,88                  271,687.70

                           Remaining Funds in CATHALAC
              Received                                 323,400.00
              Reported Expenses (without overhead)    (246,988.82)
              Overhead (10%)                           ( 24,698.88)
              Amount to be returned                      51,712.30



Page 22, Recommendation 3.4

The interests earned on the NSF grant funds as of June 30, 2003 amounted $4,848.22. This
amount was transferred to the HHS Department on October 30, 2003. Copy of the transfer
document is attached.




                                             50
                      COMMENTS ABOUT THE RECOMMENDATIONS



Recommendation 1.1

Progress has been obtained on the issues raised under this item. The Directorate worked with
the support of an Ad-Hoc Committee on Relations with Member Countries, established by the
IAI Conference on the Parties (CoP) in 2003, in making direct contacts with IAI
Representatives to sensitize them on the importance of the core support required from
Members in order to enable the Directorate to function at a sustainable level, assuring the
continuation of the present and future science and capacity building activities. As a result
several Member countries paid, or pledged to pay, part or totally their annual contribution just
before the last EC/CoP sessions held in Buenos Aires, June/July 2004. The participation of
representatives to these meetings was also quite high. A strategy for fund rising activities was
also presented to these meetings.



Recommendations 1.2 and 1.3

No comments. These recommendations touch upon future IAI policies and strategies and, if
implemented, will be the resort of the IAI constituent bodies (Executive Council and
Conference of the Parties).


Recommendation 2.1

    a. These cost principles are being included in the Project Management Manual that the
       Directorate is developing and will be included in the award agreement. We are giving
       special attention to the definition of overhead/indirect costs as well as to the not
       allowable costs.

    b. The assessment of the administrative and financial risk of new grantees will be a
       requirement before the award agreement is signed. For all new awards, the
       respective schedule of reports and payments will be close related to the risk
       assessment of the grantee institution. A specific chapter about the institutional risk
       assessment will be included in the Project Management Manual.

    c.   The post award monitoring procedures and techniques (awardees compliance with
         award terms and conditions, tracking of reports received from the awardees, on-site
         visits and external audit reviews) will be also part of the Project Management Manual.

         The tracking of reports (technical and financial), payments as well as the basic project
         information is being performed using the attached form (Status Sheet).


Recommendation 2.2

This will be a requirement previous to the signature of any new award agreement and will be
clearly explained in the call for proposals for all new IAI research programs. This requirement
will be also included in the Project Management Manual.



Recommendation 2.3

The Administrative and Financial Officer of the IAI is reviewing the financial reports submitted
by the CRN grantees and no further payment is released until the financial report is approved.




                                               51
Problems detected during the analysis of the report might require the assessment of the
grantee’s controls in order to request specific corrective actions.


Recommendation 2.4

The financial oversight and monitoring of the projects managed by the institute has been
included in the job description of the Administrative and Financial Officer as one of his/her
primary responsibilities (revised job description attached).


Recommendation 2.5

The IAI Director recently met with the Director of CATHALAC who agreed to recommend to its
Executive Council the return of the unspent funds for the project CRN-038. The correct
amount to be received from CATHALAC is $51,712 (a copy of the letter sent to the Director of
CATHALAC summarizing this conversation is attached). See also comment under
“Inaccuracies” above.


Recommendation 2.6

Contacts are being maintained with the PI and with the Oceanography Institute of the
University of Sao Paulo in this sense.


Recommendation 2.7

The funding request submitted to the NSF for the CRN II Program set aside a portion of funds
for monitoring visits as well as for external audit reviews.


Recommendation 2.8

Initial conversations with the NSF were maintained in order to find suitable dates for this
training.


Recommendations 3.1

The suggested procedure is already in place.


Recommendation 3.2

This recommendation will be difficult to put into practice and we suggest that other more
flexible and practical mechanisms, maintaining the required financial monitoring and control,
should be explored.


Recommendation 3.3

The suggested procedure is under implementation.


Recommendation 3.4

See comment under “Inaccuracies” above.




                                               52
Recommendations 4.1 and 4.2

The Directorate is working at present with the Financial and Administrative Ad-Hoc
Committee (FAC) in the finalization of the IAI Employee Manual, including the analysis of the
staff benefits.

Recommendation 4.3

Already in place.


Recommendations 4.4 to 4.6

No comments.

Recommendation 4.7

According to the terms of the grant ATM-0240107 the National Science Foundation covers
75% of the Salaries, Travel and Publications of the IAI with a limit of US$550,000. This means
that there were other expenses than the one questioned that can be included.

In order to solve this issue, we will change the reported expenses of XXXXXXXX, for the
amount of US$1,277 to Cuba (which are unallowable), by an air fare of XXXX to an allowable
destination.

The attached invoice from the travel agency XXXXXXXX is the proof of the expense.


                       COMMENTS ON “OTHER CONSIDERATIONS”

Although this section does not contain recommendations we would like to comment on the
approach and suggestions made to NSF.

The title of the section explicitly states the “Some IAI employee benefits are more generous
than comparable UN benefits”.

We were pleased to note that the UN system is suggested as a comparator. This common
system has a long and standing history in handling and ruling international staff issues and it
is widely recognized in the world community. Although it cannot directly applied to an
institution such as IAI, as for instance we do not have career development prospects (IAI staff
is contracted on a fixed term) and the IAI job classification is not based on this system, many
of the UN procedures and rules, taking into account the peculiarities of expatriate staff, could
be considered and adapted to our purposes.

Notwithstanding we think that the way the UN system was applied in the analysis is
somewhat unfair and biased. The comparison table includes only the cases in which the IAI
benefits are comparing favorably against the UN system. There are many other cases in
which this is not the case. Noteworthy is the case of allowances for dependents: IAI offers a
very modest annual sum; the UN includes an increase in the salary of about 8% for staff with
dependents. Another example is the educational allowance: for IAI is US$ 7000 while for UN
it is US$ 9750 (max. 75% of actual costs).

In summary we consider that if a comparison is made it should include all benefits.

Regarding the survey of comparable positions and compensation packages at other
organizations in Brazil, mentioned at the end of the section, it has been already implemented
through an independent consulting company.




                                              53
